<html>
<title> - IMAGES KIDS SEE ON THE SCREEN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     IMAGES KIDS SEE ON THE SCREEN

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 2007

                               __________

                           Serial No. 110-58


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

42-798 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     J. DENNIS HASTERT, Illinois
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
   Bud Albright, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Telecommunications and the Internet

               EDWARD J. MARKEY, Massachusetts, Chairman
MIKE DOYLE, Pennsylvania             FRED UPTON, Michigan
    Vice Chairman                        Ranking Member
JANE HARMAN, California              J. DENNIS HASTERT, Illinois
CHARLES A. GONZALEZ, Texas           CLIFF STEARNS, Florida
JAY INSLEE, Washington               NATHAN DEAL, Georgia
BARON P. HILL, Indiana               BARBARA CUBIN, Wyoming
RICK BOUCHER, Virginia               JOHN SHIMKUS, Illinois
EDOLPHUS TOWNS, New York             HEATHER WILSON, New Mexico
FRANK PALLONE, Jr., New Jersey       CHARLES W. ``CHIP'' PICKERING, 
BART GORDON, Tennessee                   Mississippi
BOBBY L. RUSH, Illinois              VITO FOSELLA, New York
ANNA G. ESHOO, California            GEORGE RADANOVICH, California
BART STUPAK, Michigan                MARY BONO, California
ELIOT L. ENGEL, New York             GREG WALDEN, Oregon
GENE GREEN, Texas                    LEE TERRY, Nebraska
LOIS CAPPS, California               MIKE FERGUSON, New Jersey
HILDA L. SOLIS, California           JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)

                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     4
Hon. Hilda L.Solis, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Nathan Deal, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     6
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     7

                               Witnesses

Hon. Dan Glickman, chairman and chief executive officer, Motion 
  Picture Association of America.................................     8
    Prepared statement...........................................    15
Cheryl G. Healton, president and chief executive officer, the 
  American Legacy Foundation.....................................    20
    Prepared statement...........................................    22
Donald L. Shifrin, M.D., chair, Committee on Communications, 
  American Academy of Pediatrics.................................    34
    Prepared statement...........................................    36
Mary Sophos, senior vice president, chief government affairs 
  officer, Grocery Manufacturers /Food Products Association......    40
    Prepared statement...........................................    41
Patti Miller, vice president, Children Now.......................    47
    Prepared statement...........................................    49
Kyle McSlarrow, president and chief executive officer, National 
  Cable & Telecommunications Association.........................    54
    Prepared statement...........................................    56
Jon Rand, general manager, KAYU FOX 28, Spokane/Coeur D'Alene, 
  Spokane, WA....................................................    70
    Prepared statement...........................................    72
Adam D. Thierer, senior fellow, Progress & Freedom Foundation....    86
    Prepared statement...........................................    88

                           Submitted Material

``Hollywood Smoke-out, HSPH Takes on Tobacco on Screen'' Barry R. 
  Bloom, Harvard Public Health Review, Spring/Summer 2007, 
  submitted by Mr. Glickman......................................    10


                     IMAGES KIDS SEE ON THE SCREEN

                              ----------                              


                         FRIDAY, JUNE 23, 2007

              House of Representatives,    
         Subcommittee on Telecommunications
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:12 a.m., in 
room 2123, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman) presiding.
     Present: Representatives Inslee, Harman, Capps, Solis, 
Upton, Deal, Pickering, and Walden.
    Staff present: Maureen Flood, Colin Crowell, Kyle Chapman, 
Phil Murphy, Neil Fried, Courtney Reinhard, and Matthew 
Johnson.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning, and we welcome you to the 
Subcommittee on Telecommunications and the Internet.
     Kids watch about 2 to 4 hours of TV every day, and one-
third to two-thirds of kids have TVs in their bedrooms. As for 
the big screen, in 2004, children age 12 to 17 accounted for 
almost 20 percent of all box office revenues. Given these 
statistics, it is no surprise that parents are disturbed by 
certain images children see on the screen, as these images can 
influence kids' behavior in ways that harm their health. This 
is something of a rerun for Congress. Back in 1996, Congress 
enacted the v-chip legislation for which I was the prime House 
sponsor. That law spurred the television industry to develop a 
voluntary TV rating system in response to media violence. It 
also required all TV sets manufactured after 2000 to include a 
v-chip, allowing parents to block programs they deemed 
inappropriate based upon the rating system. I believe big 
mother and big father are better able to decide what is 
appropriate for their kids to watch rather than big brother, 
but we needed the law to ensure parents had the tools to 
effectuate those choices.
    There is good news and bad news about how this is working. 
The good news is that for the parents who are aware of and use 
these tools, the v-chip and the ratings system get high marks 
and have been a success. The bad news is that far too many 
parents still don't know about them or they don't know how to 
use them. I urge the industry to look at ways to make the 
technological tools parents already possess more useful and to 
better advertise their availability. However, we must also 
recognize that there is potentially harmful content on 
children's television that parents today cannot use the v-chip 
to block, such as advertisements. The high prevalence of ads 
during children's programming for fast food, junk food, sugared 
cereals and other foods wholly lacking in nutritional value is 
deeply concerning, given that these ads have been found so 
negatively to influence children's dietary choices.
    Moreover, we must reflect on the fact that childhood 
obesity rates have skyrocketed by more than 300 percent over 
the past three decades, and the Surgeon General has 
characterized obesity as the fastest-growing cause of disease 
and death in the United States. Parents and families have an 
undeniable responsibility to steer their children to healthy 
choices, but it is hard for parents to compete with popular 
kids TV characters pushing sugary cereal or Ronald McDonald 
hocking Happy Meals. There is, after all, no means for parents 
to block junk food ads. The v-chip only applies to programs, 
not for the advertising on those programs. And there is a 
terrible inconsistency in policies that require broadcasters to 
air 3 hours a week of educationally nutritious programming for 
kids and then to have this programming and other children's 
shows surrounded by a barrage of junk food ads.
    As the House sponsor of the Children's Television Act, I 
believe that parents and children deserve better. And that act 
already grants the FCC authority to address many of these 
issues if the industry does not respond to this problem on its 
own swiftly and concretely. I commend the Kellogg company for 
voluntarily adopting nutrition standards for the foods it 
markets to children. Kellogg's recent initiative demonstrates 
that companies can market their products to children in a 
socially responsible way. I urge other food and beverage 
companies to commit at a minimum to the same restrictions that 
Kellogg has assumed. I also urge the television industry to 
develop its own robust set of commitments to refrain from 
overwhelming kids with the sheer volume of junk food ads on 
many children's shows today.
    Parents also have expressed concerns about the proverbial 
big screen, too, and the prevalence of smoking in the movies. 
Roughly 80 percent of all smokers begin smoking before their 
18th birthday. This suggests that if a child makes it to age 18 
without smoking, there is a vastly reduced chance that she will 
ever start. At the same time, the Institute of Medicine found 
that the presence of smoking in a movie significantly 
influences a child's decision to start. And statistics show 
that smoking in the movies is pervasive; 65 percent of all 
major movies produced in 2006 included smoking when only 20 
percent of Americans smoke.
    The Motion Picture Association of America recently 
announced that smoking would be a new factor in a movie's 
rating. This is a very welcomed development. So it is important 
for us, and we are glad that Dan Glickman is here today to hear 
how that is going to be implemented.
    And at this point, because of the press of time, I am going 
to stop my opening statement and turn and recognize the 
gentlelady from California, Mrs. Capps, if she would like to 
make an opening statement.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Chairman Markey. I thank you also 
for holding this hearing.
    I appreciate the witnesses who have come today. It is an 
important discussion that will happen. As a public health 
nurse, I know that the media plays an extremely important role 
in the lives of children. You know it, too. Unfortunately, 
sometimes images on the screen and in the page can exacerbate 
the problems, as we are going to discuss today, of violence, 
childhood obesity and teen smoking.
    Recently, my colleague, Congresswoman Solis, and I led a 
group of Members of Congress, we wrote a letter to the editors 
of 11 women's magazines asking them to reject advertisements 
for a new cigarette, Camel No. 9, that is aimed at young women. 
Now what is the word Camel No. 9 reminds you of, especially if 
it is accompanied by the words ``light and luscious''? So, 
today, I know we will hear about the effects that smoking in 
the movies has on young people. We must find a way to balance 
artistic freedom with the need to prevent young people, 
teenagers, from starting to smoke.
    One of the other major issues of this hearing is childhood 
obesity, one of the fastest-growing epidemics in our land 
today, huge cost to lives and to society. Recent studies have 
shown that more than 30 percent of children are either obese or 
very overweight. And there are many reasons for this, of 
course, including physical inactivity and demands on parents' 
time. But the evidence also points to a role for unhealthy food 
that is heavily advertised on television.
    I want to commend, as my colleague has done, some of the 
companies that have been leading the way on changing this. 
Disney has restricted the use of its characters to nutritious 
foods and incorporated messages about healthy living in much of 
its popular programs. And as Mr. Markey just said, Kellogg 
recently announced that it would restrict the advertising of 
its products that didn't meet nutritional guidelines. I hope 
there is a lot of positive reinforcement for this kind of 
action, and I hope that other media and food companies will 
join these companies to reform their advertising practices.
    We also must address the issue of product placement and 
integration even though these practices are illegal in 
designated children's programing. At an earlier subcommittee 
hearing, we saw clear product integration for Oreo cookies 
during the show 7th Heaven, very popular among children. 
Potential restrictions on advertising could be undermined by 
similar practices. So, Mr. Chairman, I thank you again for 
holding this hearing. And I look forward to speaking with our 
witnesses.
    Mr. Markey. The gentlelady's time has expired. To our 
panelists, with the exception of former Congressman and Cabinet 
Secretary Glickman, you should understand that we Members of 
Congress, don't really control our time, which is why I think 
Dan Glickman is happier with the job he has now. We have a roll 
call on the floor. We have 5 minutes to make, Congresswoman 
Capps and I. And then there will be a brief roll call after 
that. So, in approximately 10 minutes, we will reconvene the 
hearing. And at that point, Ranking Member Upton from Michigan 
will return, and I will recognize him, and then we will go 
right to the panel for your opening statements. So this 
committee stands in recess.
    [Recess.]
    Mr. Markey. The subcommittee will reassemble, and I will 
now turn to recognize the gentleman from Michigan, the ranking 
member of the subcommittee, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and I am sorry 
that I was not here when the gavel fell. I was actually 
outside, but when votes were called, I had to go to the floor, 
and sadly, I am going to give my opening statement. I have an 
amendment on the House floor, so we will do that; it is going 
to allegedly pass by voice. And I will be immediately back in 
my chair. But good morning.
    Today's hearing is entitled, Images Kids See on the Screen, 
and it seems that, as a society, we are much quicker to lay 
blame for our ills rather than acknowledging our own foibles. 
We have drifted away from personal responsibility. And as the 
parent of two teenagers, I firmly believe that the primary 
responsibility for the health and well-being of all of our kids 
lies with the parents, not necessarily with the media. Kids get 
fat from what they eat, not what they see. They stay fit by 
what they do or, rather, do not do. Additional Government 
regulation cannot cure childhood obesity or keep children from 
smoking. Parents have a role there, too.
    Television is unequivocally the most common source of 
information available to children growing up in our country. 
Children are not only being entertained, but they are also 
being educated by TV. Nearly all children, 99 percent, live in 
a home with a TV. Half have three or more TVs, and over one-
third have a television in their own bedroom. It is estimated 
that children today watch 3 to 4 hours of TV every single day. 
And in light of the growing amount of time that kids find 
themselves in front of a TV, the issue of what they are 
watching becomes increasingly important.
    However, let's not forget who is ultimately responsible for 
what kids watch and for how long. That is for parents. The 
master of the clicker must be the adult, not the child, in the 
household. In terms of children's programming, I would 
particularly want to commend the Kellogg company and Kraft 
foods for their leadership on voluntarily restricting marketing 
practices to kids. Kellogg's and Kraft continue to be a leader 
on so many fronts, and I am proud to represent a number of 
their great employees in my district.
    It should be noted that the industry as a whole is involved 
in a large collaborative effort, the Children's Food and 
Beverage Advertising Initiative. It is a voluntary program 
funded in November 2006 by 10 food companies, representing over 
two-thirds of the advertising devoted to kids. It is 
administered and monitored by a Council of Better Business 
Bureaus, which also oversees CARA, the self-regulatory 
children's advertising program, for all children's advertising, 
not just food. Kellogg's child nutrition and advertising 
initiative is their pledge under this program. And I expect 
that when all the pledges from the participating companies are 
in later this summer, we will benefit greatly from viewing the 
collective impact of the voluntary initiative as a whole.
    The quest for solutions concerning kids programs has led 
some down the wrong path. Some have mistakenly suggested that 
choosing channels a la carte is a solution. That is wrong; a la 
parents is the answer. For example, with their Control Your TV 
and TV Boss, along with other technologies, the cable industry 
has made great leaps in educating parents on the technology 
available to block any content that they deem inappropriate. 
Parents can block a whole channel or block by content ratings. 
Chairman Markey's v-chip works the same way for broadcast TV. 
That way, parents are empowered to decide what is best for 
their family to view. Cable operators and programmers should be 
commended for the work that they have done in that area. Our 
broadcasters should be commended as well.
    Since my bill increasing the fines that the FCC can levy 
against broadcasters for indecency was signed into law, the 
race to the bottom has ended. And there has been a reduction in 
some of the stuff that was permeating the public airwaves. 
Broadcasters across the country got the message, and they now 
think twice about pushing that envelope. Violating the decency 
standards is no longer merely viewed as the cost of doing 
business. The law provides parents a little more comfort when 
their kids turn on the TV or radio during the hours of 6 a.m. 
until 10 p.m.
    Now I don't understand why some folks think this is an 
arena for regulation, particularly as the private sector 
continues to make meaningful progress, not because they are 
forced to but as a matter of good policy. The best remedy comes 
from the industries that are self-regulating. Let's look at one 
example. A leader in kids programming, Viacom's Nickelodeon has 
licensed its characters for use on packages of fruits and 
vegetables to encourage healthy eating habits since 2005. 
Nickelodeon also licenses its characters for sports equipment 
and has committed more than $30 million and 10 percent of its 
air time to Let's Just Go Play Healthy Challenge, a multimedia 
campaign that focuses on health and wellness messaging for 
kids. The network also goes dark once a year for its Worldwide 
Day of Play, putting a message on the screen suggesting that 
kids go out and play. In addition, Nickelodeon continues to 
play an active role in the media and childhood obesity task 
force. The goal of that is to provide a forum for the public 
and private sectors to examine the impact the media has on 
childhood obesity rates and to collaborate on voluntary 
recommendations to address the issue.
    I look forward to hearing from our panel this morning, 
especially my good friend and actually my former boss, Mary 
Sophos, on this important topic. I appreciate them being here 
to help us understand and examine the issues before us.
    I will return after the amendment is adopted. Thank you, 
Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. The Chair 
recognizes the gentlelady from California, Ms. Solis.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Chairman Markey and Ranking Member 
Upton, for having this very important hearing this morning.
    Today we have an opportunity to examine the effects of 
media on one of the most important constituencies, our 
children. As chair of the Congressional Hispanic Caucus task 
force, I have long advocated for the health and well-being of 
Latino children. Latino children are more likely to be obese 
than any other group. In fact, recent statistics by the 
National Council of La Raza show that 24 percent of Mexican-
American children are overweight. African-American children 
also face problems. They represent 20 percent of children that 
are overweight. And Anglo children represent 12 percent that 
are overweight. Any problems we identify today or solutions we 
may consider will have a disproportionate impact on the health 
of minority children.
    I look forward to hearing from our witnesses about the 
advertising that targets children and the ideas they might have 
to lower rates of childhood obesity. I also look forward to 
hearing from witnesses about ways to better educate parents and 
consumers on the tools they already have to limit objectionable 
content in their homes. We have often heard from FCC Chairman 
Martin that the solution is a la carte cable programming. As 
many on this committee know, a la carte presents serious issues 
since it would increase costs for consumers and limit 
programming by a per-channel instead of per-program basis. I 
look forward to hearing from our witnesses today to help us 
provide better information for our children and for our 
parents. And I yield back the balance of my time.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Georgia, Mr. Deal.

  OPENING STATEMENT OF HON. NATHAN DEAL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Deal. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today. I have long been concerned 
about the level of violence and sexual content which has come 
to hold a prominent place in movies, commercials and television 
programming. There are those who would argue that children are 
not necessarily harmed by what they see on television. Such 
arguments I think fail to pass the test of common sense. Common 
sense tells us that when our media glorifies violence, 
promiscuous sex and other forms of questionable behavior, as a 
society, we are undermining the very principles that we seek to 
uphold. If we care about the future of our children, then, as a 
society, we should be taking the steps necessary to reform the 
images that they see on television. Part of the problem, I 
believe, is lack of consumer choice in television programming 
and the underlying issue of retransmission consent which 
prevents it. We have not given enough control to parents, 
communities and local cable operators in order to protect and 
support what comes into their homes and neighborhoods.
    A perfect example of this is the fact that there are no 
cable or satellite companies which allow their customers to 
pick and pay for the programming they actually want to watch. 
Rather, consumers are left with only a small range of packages 
which often leaves them paying for hundreds of channels, the 
vast majority of which they would never voluntarily pay for. I 
have been told before by cable and satellite providers that 
they would like to offer more choice to consumers but are 
prohibited due to forced bundling and packaging practices. Due 
to rapid media consolidation, we have a limited number of media 
companies controlling the vast array of video programming. As a 
result, they can force a take-it-or-leave-it approach for all 
of their programming, the good and the bad, the uplifting and 
the degrading. That, in my opinion, is why we have much of the 
offensive programming on our TVs. Until we fix these broken and 
outdated regulations which govern video programming, we will 
always have a system with no free market which does not allow 
parents to choose the programming they want to watch. We need a 
system which is free-market based and allows for true choice. I 
will end by emphasizing that I realize and don't believe that 
this can be resolved by a forced mandatory Government-regulated 
regime. That, in my opinion, is not the answer. I yield back.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. We start out with some pretty 
terrifying statistics. One in three of all children born in the 
United States in the year 2000 will develop diabetes during 
their lifetime. And having just lost my mom a few months ago to 
the ravages of diabetes, I can tell you that is a very, very 
stunning and threatening statistic. It really is a national 
epidemic that we are going to experience if we don't turn 
around our kids and their eating and activity behavior. And 
maybe it is one of our principle challenges of the country. So 
I am glad we are having this hearing today.
    I will just talk about two issues. One is the bombardment 
of our children of advertising for certain types of food, and 
the other is our lack of physical activity of our children. I 
just want to address them briefly. American children ages 2 to 
7 see an average of 12 food ads a day or 4,400 ads a year. Kids 
8 to 12 see an average of 21 food ads a day; they will see 
7,600 ads a year for food. Fifty percent of all ad time on 
children's shows are for food. The interesting thing about 
those ads is the kind of food that those ads portray. They see 
8.8 food ads per hour; 34 percent of those ads are for candy 
and snacks; 28 percent are for cereal; 10 percent are for fast 
food. And this is kind of interesting to me, 1 percent are for 
fruit juices, and zero are for fruits and vegetables. And I 
think that is interesting.
    If you look at the book ``Omnivore's Dilemma,'' it is a 
very interesting book about the food industry and what we eat 
in this country. And it basically says processed foods are what 
we sell because our industry, basically the only profit they 
found is in processed foods, which are high in sugar and 
concentrated fats. Somehow we have got to figure out how to get 
real food. Our kids need real food. So I appreciate this group 
is going to talk about that.
    Second, on education, Representative Wamp and I and others 
have introduced a Strengthening Physical Education Act of 2007, 
with 19 cosponsors. It will require that our schools start 
getting our kids involved in physical education, and we as 
parents have a responsibility in that as well. There are two 
parts of this equation, parents and activity, and the industry 
and bombardment of kids with sugar, and I think all of us have 
to get real serious about this diabetes epidemic. Thank you.
    Mr. Markey. The gentleman's time has expired. The Chair 
recognizes the gentleman from Oregon.
    Mr. Walden. Thank you, Mr. Chairman. I am actually going to 
wave an opening statement because I know we have votes--they 
say as soon as 11:45--so I want to make sure we hear from our 
witness panel, so I will wave.
    Mr. Markey. That is great. And all time for opening 
statements by the members has expired. We will now turn to our 
panel. And it is an extremely distinguished panel indeed.

   STATEMENT OF HON. DAN GLICKMAN, CHAIRMAN AND CEO, MOTION 
                 PICTURE ASSOCIATION OF AMERICA

    Mr. Glickman. Thank you very much, Chairman Markey and 
members. It is a pleasure to be back home here in the House. I 
served with many of you. I am delighted to be here.
    The American film community has long been committed to 
empowering parents by helping them make informed decisions 
about what is appropriate for their kids. This is in fact the 
core mission of the movie rating system which we jointly manage 
with the National Association of Theater Owners; that is to 
inform parents and, in doing so, to maintain, uphold creative 
freedom and artistic freedom in this country.
    It is no secret that the ratings system gets its share of 
heat from all sides, and that is expected, even healthy, in our 
society. Some people say, that movie should have been rated 
this way and that movie should have been rated that way. And 
the process is an art, not a science. But it should be noted 
that the rating system continues to enjoy an overwhelming 
approval among the folks for whom it was created, parents of 
young children. To maintain the rating system as a useful and 
relevant tool, we work hard to make sure it evolves alongside 
modern parental concerns.
    In recent years, if you have noticed, we have added more 
detailed rating descriptions, so that gives specificity to 
parents about why a movie is rated a certain way. We focused as 
well on advertising and marketing materials in movies, both the 
content and making sure our products are marketed to age-
appropriate audiences. We have added a stern warning to R-rated 
films, making it clear that even in the presence of a parent or 
guardian, some of these films are not suitable for young 
children. And we have added new tools, such as red carpet 
ratings, which delivers ratings on the Internet about current 
films in an e-mail account to people all over the country.
    As you know, we have recently made all smoking a factor in 
the rating of films. In the past, we focused only on teen 
smoking. Now our analysis also encompasses depictions that 
glamorize smoking or films that feature pervasive smoking 
outside of a mitigating historical, public health or other 
context. That decision has been strongly supported by major 
public health groups like the American Cancer Society, and we 
work closely with the Harvard School of Public Health and Dean 
Barry Bloom to proceed along with this. In fact, Mr. Chairman, 
I have the latest dean's message from the Harvard School of 
Public Health, which I would like to ask be part of the record, 
which talks about their role with us in working on the program 
as we have done it.
    Mr. Markey. Without objection, it will be included in the 
record.
    [The material follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.051
    
    [GRAPHIC] [TIFF OMITTED] 42798.052
    
    [GRAPHIC] [TIFF OMITTED] 42798.053
    
    [GRAPHIC] [TIFF OMITTED] 42798.054
    
    Mr. Glickman. And I would add that many, many State 
attorneys general have indicated strong support of what we have 
done. In the real world, this change will translate in two 
ways. First, films that glamorize smoking or feature pervasive 
smoking may well receive a higher rating and/or a specific note 
of caution to parents, such as, quote, glamorizes smoking.
    The second and most likely the far-reaching impact is 
greater self-restraint. Given this new higher bar set by the 
ratings board, if the objective is a G, PG or PG-13 film, there 
is likely to be even more careful consideration at the studio 
and filmmaker level of any scenes of smoking. It is still a 
creative decision on the part of the filmmaker, but the 
knowledge is there that if there are certain types of smoking 
described in the situation, it could affect the rating.
    I would say that we spent a lot of time on thinking about 
``thou shalt not'' in this debate. We talked about obesity and 
smoking; both are very important. And as you know, ironically, 
in my former position as the Secretary of Agriculture, I was 
very much involved in issues like teen nutrition, dietary 
guidelines, and it is just ironic that I find myself engaged in 
a debate that I never expected to be in in this particular job.
    But I do think, if you look at films overall, for example, 
two films come to mind, ``An Inconvenient Truth,'' the film 
about climate change, or whether it is the movie that is coming 
out today, ``A Mighty Heart,'' a film about how a journalist 
relates in the war on terrorism, the fact of the matter is, 
this industry has a long and proud legacy of shining a 
spotlight on issues of great importance and having an often 
game-changing impact. In the area of public health, we have had 
a partnership that began in the 1980s between our industry and 
the medical community on drunk driving. Experts came in and 
talked to everyone in the industry. What came out of it 
voluntarily was the depictions of designated drivers and helped 
bartenders call cabs because it became the norm on both film 
and our society.
    We have now joined at MPAA with the Entertainment Industry 
Foundation, the Directors Guild of America and others in a 
similar voluntary industry-led effort called ``Hollywood 
Unfiltered.'' Again, the aim, like the designated driver aim--
this does not relate to ratings. This is more an operational 
issue, but the aim is to raise awareness of the many voluntary 
creative choices, in this case to help further reduce the 
glamorization of smoking in film. And lest we dismiss these 
efforts, it is worth noting that the drunk-driving campaign, 
not based on censorship, has been credited with saving more 
than 50,000 American lives. So I want to make sure that we make 
the point here that ratings are not the sole solution of the 
problem. But it gives parents the information that they need to 
make choices for their kids. And the voluntary effort is one 
that we think will ultimately have a bigger role.
    Now in the area of obesity, which I just thought I would 
mention today, this is an important precedent, and this is a 
complex problem. I took this up as Agriculture Secretary. We 
developed teen nutrition. We provided the 2000 dietary 
guidelines. This is a tough issue because the idea of fresh 
fruits and vegetables added to our diet, the idea of a more 
balanced diet is one that is absolutely critical, as 
Congressman Inslee talked about, in terms of--my blood sugar is 
often a little bit at the upper level, and I understand this. 
There is no panacea in all of this. What do we do? Do we ban 
depictions of unhealthy foods? Who defines unhealthy? But we 
each have to do our part, individuals, government, society at 
large.
    It has been mentioned about the Walt Disney company 
introducing more healthful options, Nickelodeon, Universal 
Studios. And the list goes on; that helps. Children's 
programming and even the advertising are stepping up big time 
to encourage a more healthy lifestyle. And it also helps when 
we parents and grandparents set an example, look at our own 
habits and think about our responsibilities as well. Government 
edicts alone won't solve the problem. We have to work together, 
which is what we are trying to do today. I think we can make 
real progress on all of these issues. I think we can ask, what 
are the messages we are sending to our kids? Can there be more 
positive messages? Can we enlist the ingenuity of the creative 
community to help address these broader societal challenges? 
Can we do so in a manner that celebrates rather than inhibits 
creative freedom? For our kids, for the public health and for 
our democratic society, I hope the answer is yes. And I thank 
you very much Mr. Chairman.
    [The prepared statement of Mr. Glickman follows:]

                     Statement of Hon. Dan Glickman

    Good morning. Chairman Markey, Ranking Member Upton, 
members of the subcommittee, on behalf of the Motion Picture 
Association of America (MPAA) and its six member companies, I 
thank you for the opportunity to address this important set of 
topics relating to media and children.\1\
---------------------------------------------------------------------------
    1 The Motion Picture Association of America is the voice and 
advocate of the American motion picture, home video, and television 
industries. Its members include: Buena Vista Pictures Distribution; 
Paramount Pictures Corporation; Sony Pictures Entertainment Inc.; 
Twentieth Century Fox Film Corporation; Universal City Studios LLP and 
Warner Bros. Entertainment, Inc.
---------------------------------------------------------------------------
    As a parent and grandparent, I fully appreciate that the 
prevalence of media and the rapid development of the technology 
that delivers it are a challenge to parents. We must work 
together to ensure that parents have the tools they need to 
make sound, informed decisions on behalf of their children 
because in the end, it is parents--not industry, not interest 
groups, and not the government--that should make those 
decisions.
    Technology and the availability of media are not bad 
things. In fact they are two of our country's great equalizers 
and reflect the bedrock freedoms and opportunities for 
advancement upon which the country was founded. Technology 
enables a child in rural Kentucky to access online the same 
research as a child in the wealthiest suburbs of Los Angeles or 
New York or Washington.
    For example Mr. Chairman, you are acutely aware of the 
complexities and challenges of global warming, and you would 
probably agree that nothing has done more to raise awareness to 
that complex issue than the documentary film, ``An Inconvenient 
Truth.'' This is just one example of how media, and movies in 
particular, can educate and elevate socially important issues.
    Our industry has provided tremendous leadership over the 
last few decades to make sure movies are being viewed by 
appropriate audiences by providing information to parents, 
through the establishment of the movie ratings system. This 
system is the gold standard of parental informational tools, 
and parents consistently report that it is useful.
    As the market and consumer expectations are constantly 
evolving, our rating system is constantly being reevaluated to 
make sure that it is keeping pace with that transformation. In 
recent years we have introduced several refinements, adding 
more detailed ratings descriptions, expanding ratings factors, 
improving advertising and marketing regulations and 
establishing new delivery systems for ratings information.
    We all share the goal of shielding children from 
inappropriate images. We must face this problem keeping in mind 
that in our country, motion pictures and television programs 
are forms of expression protected by the first amdendment and 
that any governmental effort to regulate that speech must 
comport with our proud Constitutional history. Efforts to 
regulate speech that violate that basic principle, no matter 
how well intentioned, do not protect a single child.
    Rather than throwing up our collective hands and feeling 
overwhelmed, we must continue working aggressively and 
creatively to empower parents so they can take advantage of 
what's good and set limits for what they do not want their 
children to be exposed.
    My industry has been a leader in providing parents with the 
resources they need to make the right choices for their 
families. I would like to highlight just a few of our efforts 
for you here today.
    For nearly 40 years, MPAA has led the way with a workable 
voluntary ratings system that has stood the test of time and 
continues to have widespread support among American parents.
    Established in 1968, the Classification and Ratings 
Administration (CARA) is the gold standard of parental 
informational tools by which all others are measured. Using the 
now familiar and easy-to-understand G, PG, PG-13, R and NC-17 
motion picture ratings, the ratings system provides parents 
with guidance about a movie's content so that they can 
determine what motion pictures are suitable for their children. 
Parents make the decision, the ratings system provides them 
with tools to do so.
    According to annual outside surveys, parents have 
consistently found it extremely useful in helping them make the 
right decisions about their children's moviegoing. Last year's 
survey, released on the 38th anniversary of the establishment 
of CARA, showed that 80 percent of parents found the rating 
system to be fairly to very useful in helping them make 
decisions about what movies their children see.
    The success of the ratings system lies in its 
straightforward simplicity. It provides an overall familiar 
framework while still allowing for adjustments as circumstances 
warrant. We have worked extremely hard to make sure that in 
addition to being easy to understand and use, the ratings are 
accessible to parents in an increasingly busy and complicated 
world.
    Our ratings Web site www.filmratings.com is highly 
trafficked by parents who visit it to look up the rating of a 
motion picture and its rating reason. They can also access the 
various descriptions of the ratings and see a list of the most 
frequently asked questions about ratings.
    All official movie sites must link directly to the film 
ratings site and to www.parentalguide.org, a comprehensive 
central site which provides parents with information about CARA 
and each of the other ratings systems other industries have 
developed. If a film has not yet been rated, the television and 
online advertising for that film must note that and reference 
the ratings Web site for up-to-date information.
    To provide this information in the most convenient way, 
MPAA last year launched a free email alert service called Red 
Carpet Ratings which automatically sends parents ratings and 
ratings reasons for the most recently released movies. Parents 
can sign up for the service at the MPAA Web site at 
www.mpaa.org or on the film rating Web site.
    Aside from parents looking up the ratings of a film on one 
of these Web sites or obtaining the ratings information by 
other means, the most basic way we can provide that ratings 
information as guidance is ensuring that the ratings 
information and descriptors are provided in all of the 
advertising and marketing material for a rated movie, no matter 
in what medium, and that the movies are marketed to age 
appropriate audiences.
    Movie advertising, whether in print, on television, or 
online is required to include rating information and 
descriptors highlighting the reasons--such as violence--that 
caused the film to receive its rating.
    The FTC recognized the importance of these steps in its 
recent report on marketing to children, noting that the 
industry has made steady progress in disclosing ratings and 
rating reasons clearly and prominently in advertising since 
2000. Specifically, we have now included ratings reasons for 
all films in newspaper ads, Web sites, and posters.
    As part of the requirements to receive a film rating, all 
advertising and publicity, including Internet sites, must be 
submitted to the Advertising Administration for review and 
approval prior to being released to the public. The Advertising 
Administration reviews over 50,000 pieces of advertising a 
year. Its comprehensive rules were just updated last year to 
ensure the guidelines are keeping pace with new developments in 
content distribution, and we plan to continue to update them as 
needed.
    Movie advertising shown on network and cable television can 
only be placed during programming of compatible content and at 
appropriate hours. In reviewing a television spot for approval, 
the Advertising Administration will take into consideration 
appropriate placement and audience demographics.
    Similarly, movie trailers shown in theaters must be 
compatible with the feature so that inappropriate content is 
not advertised to younger viewers. For example, PG-rated 
features must not be preceded by trailers advertising R- rated 
films.
    Online advertising, including Internet sites, banner ads 
and video clips, must also be reviewed and approved. 
Distribution of movies and movie advertising on the Internet 
pose a whole host of new challenges as well as opportunities. 
MPAA and its member companies continue to explore and implement 
technological solutions to help block inappropriate movie 
advertising from being accessed by younger Internet users, and 
MPAA staff continually review sites for inappropriate content.
    Failure to comply with any of the advertising guidelines 
can result in significant penalties for distributors. This 
includes the revocation or suspension of their movie's rating.
    Non-MPAA member companies are not bound to have their films 
rated; however, once they submit their film for a rating, they 
are bound by our rules requiring review and approval of their 
materials.
    The ratings system is constantly evolving to meet the 
changing needs of parents. Recently we have taken several steps 
to make the system more user friendly and transparent for 
families. First, we have made improvements to ensure parents 
are informed about ``depictions of violence'' in our motion 
pictures and marketing materials. The ``depictions of 
violence'' category is one that can trigger a stricter rating. 
To help parents better understand the severity of violence, 
over time we have added additional descriptors to better 
describe the type of violent content contained in a movie.
    Second, we added an additional warning to parents that R-
rated movies are not appropriate for young children. Earlier 
this year, responding to concerns from people who frequented R 
rated movies to which parents were taking their children, MPAA 
decided to add an additional warning to the definition of R-
rated movies: ``Generally, it is not appropriate for parents to 
bring their young children with them to R-rated motion 
pictures.''
    Third, we are constantly looking at potential new factors 
to determine what additional information the ratings system may 
need to include. It was through this process that we recently 
made the decision to add ``depictions of smoking'' as a ratings 
factor.
    Last month, MPAA announced that depictions of smoking will 
be considered as a ratings factor. Depictions that glamorize 
smoking or that feature pervasive smoking outside of an 
historic or other mitigating context may receive a higher 
rating or the inclusion of smoking may be included in the 
rating descriptors for the movie such as ``glamorized smoking'' 
or ``pervasive smoking.''
    In the past, illegal teen smoking had been considered as a 
factor in the rating of films. We have now extended that 
ratings factor to encompass adult depictions of smoking.
    Smoking is a unique public health concern that we believe, 
when depicted in a motion picture, warrants giving parents 
additional information. Our change will do just that. Three 
questions will have particular weight for our rating board when 
considering smoking in a film and its effect on the rating: 
One, is the smoking pervasive; tTwo, does the film glamorize 
smoking; and three, is there an historic or other mitigating 
context for the smoking?--
    Beyond enhancing our ratings to account for smoking, we 
have also joined with the Entertainment Industry Foundation and 
the Alliance of Motion Picture and Television Producers to work 
on a project called Hollywood Unfiltered. This entertainment 
industry-led initiative is dedicated to educate and raise 
awareness within the industry of the public health consequences 
of depicting smoking in movies and television.
    Hollywood Unfiltered is a voluntary effort aimed at 
educating members of the entertainment industry about how on-
screen smoking impacts young people, while encouraging the 
industry to take action to reduce the glamorization of smoking 
in their creative work.
    Fortunately, the trend seems to be moving in the right 
direction. Statistics show that there is a declining prevalence 
of smoking in the movies in general. From July 2004 to July 
2006, the percentage of films that included even a fleeting 
glimpse of smoking dropped from 60 percent to 52 percent. Of 
those films 75 percent received an R rating for other factors. 
In other words, three out of every four films that contained 
any smoking at all over the past few years are already rated R.
    Finally, let me address the issue of childhood obesity and 
food marketing, an issue with which I'm very familiar and about 
which I care deeply from my work in the House and as Secretary 
of Agriculture under President Clinton.
    During my tenure at the U.S. Department of Agriculture, we 
revised and modernized the dietary nutrition guidelines and the 
familiar food pyramid. This was no small feat. For the very 
first time, the guidelines emphasized the importance of 
exercise--and suggested that people moderate the amount of 
sugar, fat, salt, alcohol and cholesterol they eat. And we made 
significant progress with improvements in teen nutrition as 
well.
    As part of that initiative, we undertook a comprehensive 
program to educate children about nutrition and healthful 
eating habits. Through our Team Nutrition program, we reached 
into elementary schools all across the country with educational 
materials and instruction in clear, easy to understand, and 
kid-friendly terms.
    Also, I shepherded the organic food program into existence. 
It had languished in the bureaucracy for years, and I undertook 
to make it a reality, and today, for adults as well as 
children, the program provides healthy alternative food 
choices.
    Given my background with these issues, I was heartened to 
find that much progress has been made in this area in the media 
industry.
    MPAA member companies take their responsibility in the 
marketing of their entertainment seriously and have engaged in 
several recent efforts in the area of food marketing and 
children.
    At the end of last year, The Walt Disney Company introduced 
new food guidelines aimed at giving parents and children 
healthier eating options. The guidelines for licensed foods and 
promotions aimed at children--which are based on The Dietary 
Guidelines for Americans and developed in cooperation with two 
top child health and wellness experts--will govern Disney's 
business partnerships and activities in the U.S. on a going-
forward basis and will be adapted for international use over 
the next several years.
    Under the new policy, Disney will use its name and 
characters only on kid-focused products that meet specific 
guidelines, including limits on calories, fat, saturated fat 
and sugar. In addition, Disney announced nutritionally-
beneficial changes in the meals served to children at all 
Disney-operated restaurants in its Parks and Resorts and 
unveiled a company-wide plan to eliminate trans fats from food 
served at its Parks by the end of 2007 and from its licensed 
and promotional products by the end of 2008.
    Similarly, at the end of last year, Universal Studios theme 
parks also cut transfats from use in the foods at its parks and 
now offers healthier menus.
    There have been great strides in children's programming 
also. For instance, this year marks the fifth year of 
Nickelodeon's award-winning, Let's Just Play Go Healthy 
Challenge program, a multi-media campaign to which Nickelodeon 
has committed more than $30 million and 10 percent of its 
airtime. The campaign empowers kids to recapture the spirit and 
benefits of active play. More than 70 PSAs on health and 
wellness have aired featuring prominent figures such as former 
President Bill Clinton, Gov. Mike Huckabee and Tiki Barber.
    Throughout the summer, Nickelodeon will air the Let's Just 
Play Go Healthy Challenge half hour television series that 
follows four children as they take the healthy challenge to eat 
better and exercise. In 2006, 6 million viewers tuned in to 
follow the Challenge, and since the launch of the Let's Just 
Play Go Healthy Challenge in 2006, 221,000 kids have registered 
at Nick.com to make healthy choices.
    In addition to programming, Nickelodeon has adopted an 
approach to licensing characters to help encourage healthier 
diets and lifestyle choices for children. SpongeBob, Dora the 
Explorer and other popular characters are now licensed on a 
wide variety of healthy food from broccoli, green beans, and 
spinach to cherries, apples, pears, and grapes.
    At the end of the day, the focus of our collective efforts 
should be solely on the question of have we provided parents 
with the information they need--whether that is the nutrition 
and diet information of a product so that parents can decide 
what their kids should eat or information about a movie's 
content so that they can decide what their kids can watch. 
Government should not and indeed cannot make those choices. 
Only parents can.
    In the recent FCC report on television violence that the 
full Committee requested three years ago, Commissioner 
Adelstein stated ``that parents are the first, last and best 
line of defense against all forms of objectionable content'' 
before highlighting the extent to which DVDs, digital video 
recorders and online offerings give parents more control than 
ever.
    As I am sure you will hear from Adam shortly, parents have 
more technological tools at their disposal than ever before to 
help filter what their children see and hear. The V-Chip is 
already built into television sets to allow programming 
blocking. Additional parental controls are often just one click 
away on remote controls as every digital set top box includes 
parental screening tools with password options. These parental 
controls are far less restrictive methods of protecting 
children from inappropriate content than government imposed 
content controls.
    Unfortunately, the FCC Report's findings both glossed over 
the entertainment industry's recent efforts with respect to 
parental controls and virtually ignored the serious 
constitutional implications of government attempts to regulate 
violent content on television.
    That is why, after noting that ``the Report does not even 
discuss the full menu of parental assistance tools that are 
available to millions of families'' thereby resulting in 
incomplete analysis and resulting in a skewed set of 
recommendations to help parents, Commissioner Adelstein 
admonished his colleagues for such dismissive treatment of the 
fundamental constitutional issues involved. The depiction of 
violence in entertainment ``is a protected constitutional right 
under the First Amendment that we are recommending Congress to 
curtail without any thoughtful legal analysis.''
    The first amendment is clear. Government cannot regulate 
speech without first finding a compelling government interest 
and then narrowly tailoring a solution that furthers that 
interest and is the least restrictive alternative. The 
attempted government regulation of ``depictions of violence'' 
suggested by the FCC in its report fails to meet that 
constitutional threshold. As you know, the FCC did not even 
attempt to define ``inappropriate violence'' as it was asked to 
do given the challenge of such a definition. I submit that such 
a definition cannot be crafted in this context to meet 
constitutional muster, and similar government mandated content 
restrictions would certainly result in the same 
unconstitutionality.
    Instead of pursuing a government solution, Commissioner 
Adelstein recommended that there be a close look at the 
significant industry efforts on ratings awareness and parental 
controls. We agree.
    MPAA has already been actively working with groups like 
Pause Parent Play and others to provide parents with the 
information they need to make those decisions and with the 
parental controls to then help them limit their children's 
access to only what they have deemed appropriate.
    In 2006, we partnered with the fellow entertainment 
industry groups and the Consumer Electronics Association in 
establishing TheTvBoss.org multi-million dollar ad campaign 
which was created by media companies in partnership with the Ad 
Council to raise awareness of V-chip technology which allows 
parents to control television programming.
    We have also worked closely with a number of private 
entities like Pause Parent Play to streamline the provision of 
ratings information and get it into the hands of parents. For 
instance, with Pause Parent Play, the MPAA and its member 
companies partnered with entities such as the YMCA, Girl Scouts 
of America and Wal-Mart, among others, to sponsor a one-stop 
Web site www.PauseParentPlay.org for ratings information about 
all forms of media--movies, music, television and video games. 
The aim of the site is to compile tools and information so 
parents can make more informed choices about their kids' 
entertainment.
    Indeed, the key to all of the issues before this Committee 
today is how to best empower parents to make the decisions as 
to what their kids see. Only they can best judge what is and 
what is not appropriate for their own children. And that is 
what we hear time and time again from parents.
    Parents are very clear with us in indicating that they--not 
the industry and certainly not the government--should determine 
what is appropriate for viewing by their kids. What they want 
is information that is accurate and timely.
    The movie ratings system is an evolving system, and we are 
constantly evaluating what additional information should be 
provided to make it even more useful. That is why we took the 
steps we did with respect to smoking, and that is why we will 
continue to look at potential additional improvements.
    Chairman Markey, Ranking Member Upton, members of the 
subcommittee, I appreciate the chance to discuss these issues 
of importance to our industry, and I look forward to answering 
any questions you may have regarding what I have just 
discussed. Thank you.
                              ----------                              

    Mr. Markey. We thank you, Mr. Glickman, very much.
    Now we are going to hear from Cheryl Healton, who is the 
president and chief executive officer of the American Legacy 
Foundation. Welcome.


 STATEMENT OF CHERYL G. HEALTON, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, THE AMERICAN LEGACY FOUNDATION

    Ms. Healton. Thank you. Good morning. I am Dr. Cheryl 
Healton, president and CEO of the American Legacy Foundation, 
the national public health foundation dedicated to building a 
world where young people reject tobacco and anyone can quit. I 
commend the subcommittee on holding this important hearing, and 
I very much appreciate the invitation to testify.
    The media images children and teenagers are exposed to 
exert a powerful and too often negative impact on their health. 
I will address the devastating impact that the pervasive images 
of smoking in the media has on adolescent smoking and the steps 
that must be taken to protect our children. I will start with a 
short reel of images of smoking in recent PG-13 as well as 
images of smoking in movie trailers that are aired on TV to 
advertise films.
    [Video shown.]
    Ms. Healton. Tobacco is one of the most significant public 
health challenges facing the United States. It is the largest 
preventable cause of death, with over 400,000 Americans dying 
every year from smoking, and fully 63 percent of all cancer 
deaths are tobacco attributable. Most astounding is that this 
is 100 percent preventable in theory. One of the most 
pernicious aspects of the epidemic is that over 80 percent of 
smokers start before their 18th birthday. The tobacco industry 
has chillingly referred to teenagers as replacement smokers for 
their customers who die or manage to quit. It is therefore 
critically important to take action to prevent teens from 
starting to smoke.
    The Truth campaign, the only non-tobacco-industry-sponsored 
national tobacco countermarketing campaign, does just this. 
Edgy and hard-hitting, Truth communicates with teens in their 
own voice about the toll of tobacco and the marketing practices 
of the tobacco industry. Peer-reviewed research found, in the 
first years, Truth was responsible for about 300,000 fewer 
smokers in 2002 alone. But Truth cannot do it alone, even when 
fully funded, which is no longer the case.
    Due to declining resources, our media buys have been 
drastically cut. At the same time, reports suggest that the 
historic decade-long decline in youth smoking reduction has 
begun to end, and youth smoking rates may be trending back up. 
We truly face a national crisis. Research establishes that 
smoking on screen recruits about 390,000 new smokers every 
year, accounting for between one-third and one-half of all 
adolescent smoking initiation.
    In 2004, tobacco was depicted in three-fourths of youth-
rated movies and 90 percent of R-rated movies. Because teens 
are less likely to see R-rated movies, about 60 percent of 
youth exposure comes from youth-rated movies. Smoking is also 
pervasive in TV. And many movie trailers, you just saw some, 
that are shown on TV contain images of smoking, which is ironic 
since most movies have only a few minutes of smoking, that they 
seem to appear in so many televised movie trailers. The 
foundation research found that, for a 1-year period, 14 percent 
of these ads for movies included images of tobacco use and that 
nearly all youth between age 12 and 17 years of age saw at 
least one of these movie trailers, with 89 percent seeing at 
least one of them three or more times.
    What then should we do? One, get smoking out of the movies 
and television shows that are produced for and marketed to 
teens and children. And two, to the extent that smoking images 
remain in these media, counteract their effects. Along with 
other leading public health organizations, we support the 
guidelines that limit smoking in movies. If put into practice, 
this will significantly reduce the movies' influence on 
adolescent smoking. I think the committee is familiar with 
these principles:
    Rate new smoking movies with an R. A recent nationally 
representative sample of adult Americans found that 70 percent 
of adults support the R rating.
    Certifying no payoffs. There is a long and well-documented 
history of paid tobacco placement in the movies. Steps that 
have been taken to stop this through the master settlement 
agreement and the FTC tobacco marketing expenditure report are 
far from air tight. It is extremely important to continue to 
shine a bright light on tobacco product placement which the 
industry voluntarily agreed not to do under the settlement.
    Require anti-smoking ads. Research shows that strong anti-
smoking advertisements shown immediately before a movie can 
help counteract the impact of smoking images. We have worked 
closely with the State AGs to make available without charge our 
Truth ads to be included before movies, DVDs released and other 
home-viewing formats. While I know they would be effective, our 
declining budgets make it almost impossible for us to otherwise 
show Truth ads before movies with smoking.
    Stop identifying tobacco brands. Seventy-five percent of 
teens smoke three most heavily used brands: Marlboro, Camel and 
Newport. Given this, images of nonbranded smoking are already a 
powerful influence on youth smoking initiation.
    Finally, I recognize that after years of urging, the MPAA 
has taken a hesitant step forward. We will watch very carefully 
the result of this, and we end by finally, once again, thanking 
the committee for taking up this topic.
    [The prepared statement of Ms. Healton follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.001
    
    [GRAPHIC] [TIFF OMITTED] 42798.002
    
    [GRAPHIC] [TIFF OMITTED] 42798.003
    
    [GRAPHIC] [TIFF OMITTED] 42798.004
    
    [GRAPHIC] [TIFF OMITTED] 42798.005
    
    [GRAPHIC] [TIFF OMITTED] 42798.006
    
    [GRAPHIC] [TIFF OMITTED] 42798.007
    
    [GRAPHIC] [TIFF OMITTED] 42798.008
    
    [GRAPHIC] [TIFF OMITTED] 42798.009
    
    [GRAPHIC] [TIFF OMITTED] 42798.010
    
    [GRAPHIC] [TIFF OMITTED] 42798.011
    
    [GRAPHIC] [TIFF OMITTED] 42798.012
    
    Mr. Markey. We thank you very much, Doctor.
    Our next witness is Dr. Donald Shifrin. He is a 
pediatrician and the chair of the Committee on Communications 
of the American Academy of Pediatrics.
    Welcome, Doctor.

   STATEMENT OF DONALD L. SHIFRIN, M.D., CHAIR, COMMITTEE ON 
         COMMUNICATIONS, AMERICAN ACADEMY OF PEDIATRICS

    Dr. Shifrin. Good morning, Chairman Markey. I want to thank 
you for calling this hearing and for your years of leadership 
on media's impact on children. I also thank the members of the 
subcommittee for their time and attention today on what we 
think is a critical issue.
    I am Dr. Don Shifrin, representing the American Academy of 
Pediatrics, at 60,000 pediatricians. And for the past 4 years, 
I have served as the chair of the academy's Committee on 
Communications; served as a member of the academy's National 
Task Force on Obesity. I am a general pediatrician. I have been 
seeing patients for 29 years. For more than 25 years, the 
Academy of Pediatrics has been addressing the issue of media 
and its positive and negative effect on the physical and mental 
health and behavior of children and adolescents. With greater 
access and time to influence young people's attitudes and 
actions from infancy into adolescents, television, movies, 
video games, music and the Internet have displaced parents and 
teachers as children's primary role model, sources and filters 
of information about their world and how they can choose to 
behave in it. Children learn by observing and imitating. They 
cannot help but be influenced by the media. Media are a 
significant part of our lives and have much to teach. But some 
media messages are negative and can be harmful to children.
    Please note that the academy has covered the issue of 
violence and tobacco for our written testimony. But for 
purposes of time, I will focus my oral remarks today just on 
advertising, the impact on childhood obesity.
    It is now common knowledge by everyone that the prevalence 
of overweight and obese children has increased at some 
incredibly alarming rates in the United States. These children 
are much more likely to be at risk for medical problems, such 
as higher blood pressure, type 2 diabetes and cardiovascular 
and mental health issues.
    Prevention is the hallmark of all pediatric care. The 
present trends indicate that families, schools, communities, 
policymakers, health care professionals, the food industry and 
the media all influence what is now the most significant 
ongoing chronic health threat to children. Therefore, everyone 
has a critical role in working to reverse the trend of 
increasingly obese children.
    As a practicing pediatrician, I see parents and caregivers 
every day who are searching for help for their overweight 
children.
    As I speak to you today for these 5 minutes with a 
significant sense of urgency, I can assure you that these 5 
minutes are statistically more time than many of my colleagues 
have with families to discuss nutritional and activity 
awareness, media time and literacy issues during a once or 
every other year office visit. Contrast that time with the 
amount of time children spend seeing 40,000 ads per year on 
television alone. And according to the Kaiser Foundation, the 
fact that one-third of children younger than 6 have televisions 
in their bedroom, there is no question it is not a level 
playing field for parents or pediatricians.
    Leisure activity for children is increasingly sedentary, 
with wide availability of entertainment including televisions 
at home, in cars and on cell phones as well as videos and 
computer games. According to national survey data, children who 
watched 4 or more hours of television per day were 
significantly heavier compared to those watching fewer than 2 
hours.
    Furthermore, having a television in the bedroom has been 
reported to be a strong predictor of being overweight, even in 
pre-school-aged children. In addition to not getting enough 
exercise, children who consume media are being overwhelmed with 
junk food advertising and marketing. They are seeing an 
unhealthy disproportionate amount of advertising for products 
that are high in fat, sugar and sodium and low in nutrition. In 
the recent Kaiser Foundation report, ``Food For Thought,'' food 
was the top product seen advertised by children.
    Mr. Inslee did very kindly give the statistics of 34 
percent of all food ads were for candy and snacks. Of the more 
than 8,000 ads reviewed in the Kaiser study, none were for 
fruits and vegetables; yet advertising healthy food has been 
shown to increase wholesome eating in children as young as 3 to 
6 years of age. Since 1999, the Academy has recommended no more 
than 1 to 2 hours of screen time per day for children. And we 
discourage any screen time for children under age 2 to 
encourage more interactive activities with parents and 
caregivers. But we recognize that educating families about 
moderation, helpful choices, balance rather than restrictions, 
portion size and physical activity many times are lost in the 
tsunami of their children's media exposure to less healthful 
foods. Children now grow up in demographic niches rather than 
neighborhoods targeted at the earliest ages by advertising 
wanting to brand them early and brand them often.
    There are many risk factors that contribute to childhood 
obesity and certainly many lines of defense, beginning with 
parental responsibility, but that is not the only line of 
defense. The following are some of the Academy's 
recommendations:
    The Academy of Pediatrics considers advertising directly to 
young children to be inherently deceptive and exploits children 
under the age of 8. Children younger than 8 cannot discriminate 
between fantasy and reality, and as such, they are uniquely 
vulnerable. Advertising and promotion of energy-dense, 
nutrient-poor food products to children should be reduced and 
restricted. The academy has called for a ban on junk food 
advertising during programming that is viewed predominantly by 
young children. The Government should limit commercial 
advertising on children's programming to no more than 5 to 6 
minutes per hour which would decrease by 50 percent the current 
amount. And the Academy of Pediatrics supports and advocates 
for social marketing intending to promote healthful food 
choices and increased physical activity. The food and beverage 
companies and media industry should develop and advertise 
healthful food and eating choices, and the American Academy of 
Pediatrics wants the Federal Government to fund research on the 
impact of media on the ongoing health and behavior of children.
    In conclusion, media permeates our lives, and therefore, it 
deserves our collective action. Pediatricians will continue to 
do their part. Policymakers need to keep protecting the public 
interest in this arena. Parents need to understand the impact 
of media on children's health and take responsibility for 
finding--and that is difficult--and making informed choices 
about what media their family consumes. The industry needs to 
drastically reduce the number of junk food ads and rate 
programs properly. And together we can make a difference in the 
health and well-being of all children. And that is going to 
benefit all of us. Thank you, sir.
    [The prepared statement of Dr. Shifrin follows:]

                  Statement of Donald L. Shifrin, M.D.

     Good morning. I appreciate the opportunity to testify 
today before the Telecommunications and the Internet 
Subcommittee at this hearing, Images Kids See on the Screen. My 
name is Dr. Don Shifrin, and I am proud to represent the 
American Academy of Pediatrics (AAP), a non-profit professional 
organization of 60,000 primary care pediatricians, pediatric 
medical sub-specialists, and pediatric surgical specialists 
dedicated to the health, safety and well being of infants, 
children, adolescents, and young adults. For the past 4 years, 
I have served as chair of the American Academy of Pediatrics' 
Committee on Communications, which has developed several AAP 
policy statements on media, including advertising, media 
violence, television, sexuality and media, and media education. 
I also served on the AAP Task Force on Obesity. I am a general 
pediatrician in Seattle, Washington, where I have been treating 
newborns through young adults for 29 years. I also hold a 
clinical professorship in pediatrics at the University of 
Washington School of Medicine.
    For more than 25 years, the American Academy of Pediatrics 
has been addressing the issue of media and its positive and 
negative impact on the health and behavior of children and 
adolescents. With greater access and time to influence young 
people's attitudes and actions from infancy into adolescence, 
television, movies, video games, music, and the Internet have 
displaced parents and teachers as children's primary role 
models, sources, and filters of information about their world 
and how they can choose to behave in it. Children learn by 
observing and imitating--they cannot help but be influenced by 
the media. Media are an important part of our lives and have 
much to teach, but some media messages are negative and can be 
harmful to children.
    Children in this country drink from a seemingly 
inexhaustible supply of media every day. What would we do if we 
discovered that the water our children drink was full of things 
toxic to their physical and mental health? There is a lot of 
toxic programming and advertising that's flowing unimpeded into 
homes, and it's impacting the health of our children. We want 
media experiences for children to be positive as well as 
limited. Just as we would limit certain foods in a child's diet 
that may be unhealthy, we also need to limit their media diet 
of messages.
    It takes a village to raise a child, but our concern is 
that the electronic village is supplanting parental values. The 
AAP believes there is a role for parents, medical 
professionals, the entertainment industry, food and beverage 
industry, advertising industry, and yes, our government, in 
addressing the impact of media on children.

               AAP History on Impact of Media on Children

    For its part, the American Academy of Pediatrics has been 
directly involved in numerous voluntary, legislative, and 
regulatory solutions. For example, we supported the Children's 
TV Act of 1990 and the legislation creating the V-chip and 
participated in the TV ratings negotiations--an AAP member 
currently serves on the TV Oversight Monitoring Board. We 
launched a Media Matters campaign 10 years ago to train 
pediatricians about media issues and to educate parents and 
children about how to make good media choices. We provide 
materials for pediatricians to use during office visits to ask 
families about media use. The AAP is an active member of the 
Children's Media Policy Coalition, which recently reached an 
agreement with the media industry over public interest 
obligations for children's programming and advertising for 
digital TV. The AAP also currently serves on the Joint Task 
Force on Media and Childhood Obesity, initiated by Senators 
Brownback and Harkin and FCC Chairman Martin, FCC Commissioner 
Tate and FCC Commissioner Copps. This Task Force is several 
weeks away from completing its work, and the Academy hopes the 
groups involved can reach a final agreement that makes 
substantive changes in the way food is advertised to children.

                   Advertising and Childhood Obesity

    By now it is common knowledge that the prevalence of 
overweight and obese children has increased at an alarming rate 
in the United States, doubling in the past 20 years. Overweight 
and obese children are much more likely to be at risk for such 
medical problems as higher blood pressure, type 2 diabetes, and 
cardiovascular and mental health issues.
    Prevention is the hallmark of all pediatric care. The 
present trends indicate that families (traditional, single-
parents, divorced, and stepfamilies), schools, communities, 
policy makers, health care professionals, the food industry, 
and the media all influence what is now the most significant 
ongoing chronic health threat to children. Therefore, all play 
a critical role in working to reverse the trend of increasingly 
obese children. Much like it has been stated that smoking is a 
pediatric disease, the same could be said for obesity. 
Pediatricians are committed to helping kids and families lead 
healthy, active lives.
    As a practicing pediatrician I see parents and caregivers 
every day who are searching for help for their overweight 
children. As I speak to you today for 5 minutes with a 
significant sense of urgency, I can assure you that these 5 
minutes are statistically more time than many of my colleagues 
have with families to discuss nutritional and activity 
awareness, media time, and literacy issues during an annual or 
every other year health maintenance appointment. Contrast that 
time with the amount of time children spend seeing 40,000 ads 
per year on television alone, and according to the Kaiser 
Family Foundation, the fact that 33 percent of children younger 
than age 6 have a TV in their bedroom. It hardly seems like a 
level playing field for parents or pediatricians.
    Leisure activity for children is increasingly sedentary, 
with wide availability of entertainment, including televisions 
at home, in cars and on cell phones, as well as videos and 
computer games. According to national survey data, children who 
watched 4 or more hours of television per day were 
significantly heavier compared to those watching fewer than 2 
hours a day. Furthermore, having a TV in the bedroom has been 
reported to be a strong predictor of being overweight, even in 
preschool-aged children.
    In addition to not getting enough exercise, children who 
consume media are being overwhelmed with junk food advertising 
and marketing. They are seeing an unhealthy, disproportionate 
amount of advertising for products that are high in fat, sugar 
and sodium, and low in nutrition. In a Kaiser Family Foundation 
report released this year, Food for Thought, food is the top 
product seen advertised by children. The study found that 
``tweens ages 8-12 see the most food ads on TV, an average of 
21 ads a day, or more than 7,600 a year. Teenagers see slightly 
fewer ads, at 17 a day, for a total of more than 6,000 a year. 
For a variety of reasons--because they watch less TV overall, 
and more of their viewing is on networks that have limited or 
no advertising, such as PBS and Disney--children ages 2-7 see 
the least number of food ads, at 12 food ads a day, or 4,400 a 
year.'' According to that same Kaiser report, 34 percent of all 
food ads targeting children or teens are for candy and snacks, 
28 percent are for cereal, and 10 percent are for fast foods. 
Of the 8,854 food and beverage ads reviewed in the study, none 
were for fruits or vegetables targeting children or teens. Yet, 
advertising healthy foods has been shown to increase wholesome 
eating in children as young as 3 to 6 years of age.
    Since 1999, the AAP has recommended no more than 1-2 hours 
of screen time per day for children, and we discourage any 
screen time for children under age 2 to encourage more 
interactive activities with parents and caregivers. We also 
advise parents to take TV sets out of children's bedrooms. But 
we recognize that educating families about moderation, 
healthful choices, balance rather than restrictions, portion 
size, and physical activity many times are lost in the tsunami 
of their children's media exposure to less healthful foods. To 
put it simply, advertising works. If it didn't, the industry 
wouldn't spend billions of dollars persuading children and 
their parents. Unfortunately, children do not grow up in 
neighborhoods any more. They grow up defined by demographic 
niches, targeted at the youngest ages by advertising wanting to 
brand them early and brand them often.
    Granted, there are many risk factors that contribute to 
childhood obesity. And there are many lines of defense, 
beginning with parental responsibility. But that is not the 
only line of defense. According to the 2005 Institute of 
Medicine report, ``Food Marketing to Children and Youth: Threat 
or Opportunity?'' ``...food and beverage marketing influences 
the preferences and purchase requests of children, influences 
consumption at least in the short term, is a likely contributor 
to less healthful diets, and may contribute to negative diet-
related health outcomes and risks among children and youth.''
    It has been 43 years since the first Surgeon General's 
report on smoking, and we are still dealing with its terrible 
toll on our Nation's health. Our children and their children 
cannot wait another 40 years for us to address the issue of 
food advertising and marketing and its role in obesity.
    Advances in technology will definitely exacerbate the 
problem. Children's advertising protections will need to be 
updated for digital TV, which, if all goes according to plan, 
will be in place in 2009. Children watching a TV program will 
be able to click an on-screen link and go to a Web site during 
the program. Interactive games and promotions on digital TV 
will have the ability to lure children away from regular 
programming, encouraging them to spend a long time in an 
environment that lacks clear separation between content and 
advertising. Interactive technology also allows advertisers to 
collect information about children's viewing habits and 
preferences and target them much more specifically.
    What should be done? The following are the Academy's 
positions and recommendations on advertising and marketing 
issues specifically as they relate to media and childhood 
obesity:

     <bullet> AAP considers advertising directly to young 
children to be inherently deceptive and exploits children under 
the age of 8 years. Children younger than 8 cannot discriminate 
between fantasy and reality, and as such they are uniquely 
vulnerable.
     <bullet> Advertising and promotion of energy-dense, 
nutrient-poor food products to children should be reduced and 
restricted. The AAP has called for a ban on junk-food 
advertising during programming that is viewed predominantly by 
young children.
     <bullet> The government should limit commercial 
advertising on children's programming to no more than 5 to 6 
minutes per hour, which would decrease the current amount by 50 
percent.
     <bullet> AAP supports and advocates for social marketing 
intended to promote healthful food choices and increased 
physical activity. The food and beverage companies and media 
industry should develop and advertise healthful food and eating 
choices.
     <bullet> The AAP wants more federally funded research on 
the impact of media on the health and behaviors of children.
     <bullet> The government should prohibit interactive 
advertising to children in digital TV. Information about 
children and their viewing habits should not be collected 
without affirmative parental consent.

                             Media Violence

    America's young people are being exposed to increasing 
amounts of media violence through television, movies, video 
games, and popular music. The American Academy of Pediatrics 
recognizes exposure to violence in the media as a significant 
risk to the health of children and adolescents. Extensive 
research evidence indicates that media violence can contribute 
to aggressive behavior, desensitization to violence, 
nightmares, and fear of being harmed. This ``fear factor'' has 
also extended to television news reports of violence locally, 
nationally, and internationally.
    Although exposure to media violence is not the sole factor 
contributing to aggression, antisocial attitudes, and violence 
among children and teens, it is an important health risk factor 
on which we, as pediatricians and as members of a compassionate 
society, can intervene.
    In its 2001 Media Violence policy statement, the AAP calls 
for simplified, content-based media ratings to help parents 
guide their children to make healthy media choices. Following 
the release of the Federal Communications Commission (FCC) 
media violence report, the AAP would like to open discussions 
with the broadcast industry about improving the 10-year-old TV 
ratings system. For example, the ratings are inconsistent 
between networks. One network might apply a ``V'' for violence 
to a program, and another network with a similar level of 
violence in a program doesn't. The AAP has also long advocated 
for content-based, not just age-based, ratings. Tell parents 
what's in the program, and let them determine if they believe 
it's appropriate for their children. The ``alphabet soup'' of 
the TV ratings---V, S, D--are not understood by the public, 
especially ``FV'' which denotes fantasy violence, but many 
parents believe these letters stand for family viewing. A 
majority of parents also are not even aware that E/I stands for 
educational and informational children's programming. We would 
recommend displaying the ratings more often during shows and 
increase their visibility in on-air and print guides.
    The AAP has promoted media literacy among children and 
parents and conducted public education campaigns to help 
parents understand all the ratings systems and to make them 
aware of the tools available, like the v-chip, to control 
content. We advise pediatricians to advocate for more child-
positive media, not censorship, and created a ``media history'' 
form for pediatricians to use in their offices with families. 
Having such information can assist in reviewing and changing 
media diets.
    What else can be done? The AAP offered recommendations from 
its Media Violence policy statement to the entertainment 
industry, such as:

     <bullet> Avoid the glamorization of weapon carrying and 
the normalization of violence as an acceptable means of 
resolving conflict.
     <bullet> Eliminate the use of violence in a comic or 
sexual context or in any other situation in which violence is 
amusing or trivialized.
     <bullet> If violence is used, it should be used 
thoughtfully as serious drama, always showing realistic pain 
and suffering, and loss.
     <bullet> Video games should not use human or other living 
targets or award points for killing, because this teaches 
children to associate pleasure and success with their ability 
to cause pain and suffering to others.

                                Tobacco

    Tobacco manufacturers spend $30 million per day ($11.2 
billion per year) on advertising and promotion. Exposure to 
tobacco advertising may be a bigger risk factor than having 
family members and peers who smoke and can undermine the effect 
of strong parenting practices.
    Preventing young people from starting to use tobacco is the 
key to reducing the death and disease caused by tobacco use. 
The AAP has joined with other public health groups, and 31 
state attorneys general, through the Smoke Free Movies project 
to urge moviemakers to change how smoking is portrayed in 
films. Mainstream movies are one of the most important factors 
in recruiting preteens and teens to begin smoking. Research 
published in our scientific, peer-reviewed journal Pediatrics 
just last month found that U.S. films deliver billions of 
smoking impressions to 10-14 year olds, which is the age when 
most kids are likely to experiment with cigarettes.
    The U.S. film industry can cut adolescent exposure 
substantially by extending the R-rating to tobacco imagery. 
This voluntary step will not result in more films being rated 
R. It will simply keep smoking out of future G, PG and PG-13 
films, producing public health benefits at virtually no cost.

    The Smoke Free Movies project has four goals:

     <bullet> Rate new smoking movies ``R''--any film that 
shows or implies tobacco should be rated ``R.'' The only 
exceptions should be when the presentation of tobacco clearly 
and unambiguously reflects the dangers and consequences of 
tobacco use or is necessary to represent the smoking of a real 
historical figure.
     <bullet> Certify no pay-offs--declare in the credits that 
nobody received anything of value in exchange for using or 
displaying tobacco.
    <bullet> Require strong anti-smoking ads--to run before any 
film with any tobacco presence, regardless of the rating.
     <bullet> Stop identifying tobacco brands in films.

    These are four voluntary solutions that could and should be 
adopted immediately by the Motion Picture Association of 
America (MPAA) and their movie studios. Actions by them to date 
have fallen short. The AAP looks forward to the MPAA joining 
the effort to protect children and teens from becoming addicted 
to the largest avoidable cause of death in the United States by 
implementing evidence-based policies in rating movies.
    The American Academy of Pediatrics also continues to urge 
Congress to pass Federal legislation (S. 625/H.R. 1108) that 
gives the Food and Drug Administration (FDA) authority to 
regulate both current and new tobacco products and restrict 
tobacco product marketing. It bans such tactics as cartoon 
advertisements, free tobacco-themed merchandise that appeals to 
children, and sponsorship of sports and entertainment events.
    Finally, in its December 2006 Advertising policy statement, 
the AAP calls on Congress to implement a ban on cigarette and 
tobacco advertising in all media, including banners and logos 
in sports arenas. We believe advertisements can be restricted 
if there is a significant public health risk, particularly to 
children.
    I appreciate this opportunity to present testimony on 
behalf of the American Academy of Pediatrics. Media permeates 
our lives, and therefore it deserves our collective action. 
Pediatricians will continue to do their part. Policymakers need 
to keep protecting the public interest in this arena. Parents 
need to understand the impact of media on children's health and 
take responsibility for making informed choices about what 
media their family consumes. The industry should drastically 
reduce the number of junk food ads children see, rate their 
programs properly and standardize the ratings, offer more 
responsible portrayals of violence, and increase the amount of 
quality, educational programming for children. Together we can 
make a difference in the health and well being of all children, 
and that will benefit all of us.
                              ----------                              

    Mr. Markey. Thank you, Dr. Shifrin.
    Our next witness is Mary Sophos, who is the senior vice 
president and chief government affairs officer for the Grocery 
Manufacturers/Food Products Association. Welcome.

    STATEMENT OF MARY SOPHOS, SENIOR VICE PRESIDENT, CHIEF 
GOVERNMENT AFFAIRS OFFICER, GROCERY MANUFACTURERS/FOOD PRODUCTS 
                          ASSOCIATION

    Ms. Sophos. Thank you, Mr. Chairman. And thank you for the 
opportunity to be here today.
    Reducing childhood obesity and encouraging healthy 
lifestyles for children and adults is an important cause that 
the food industry has made one of its top priorities.
    The Grocery Manufacturers/Food Products Association 
represents the world's leading food, beverage and consumer 
packaged goods companies. GMA and our member companies are 
committed to helping Americans live healthier lives, and we 
believe that balanced nutrition and active lifestyle and 
healthy choices is the key for both children and adults.
    The food industry recognizes that it can help by providing 
a wider range of nutritious product choices and marketing those 
choices in ways that promote healthy lifestyles. We are also 
committed to supporting parents, schools, communities and 
others whose participation is crucial if we are to have any 
measurable success.
    The most important contribution that the food and beverage 
sector has made to help Americans improve their diets is the 
development and introduction of thousands of new and 
reformulated products. Companies are making meaningful 
improvements across their product portfolios, introducing over 
10,000 new or reformulated products with reduced calories, 
reduced saturated and trans fats, reduced sodium and sugar, 
over the past 5 years. Companies have enhanced products with 
whole grains, fiber and micronutrients and have modified 
package sizes to help consumers focus on serving size and 
portion control, including new package sizes created for kids. 
While the cumulative impact of these individual efforts is 
already significant, we believe it will grow substantially.
    So just how do people find 10,000 new and improved 
products? Overwhelmingly, the information is carried by the 
media represented here today. TV, radio and newspapers, 
magazines and Web sites will carry messages about these healthy 
and tasty choices to millions of consumers across the country. 
GMA members strive to deliver messages that are ethical and 
accurate. We take very seriously our obligation to advertise 
responsibly and to take into account the special needs of 
children. We have always had a strong voluntary self-regulation 
system in this country, and the Council of Better Business 
Bureaus has just made it better by its recent modernization and 
strengthening of the cable guidelines.
    Our members have been challenged to do even more with our 
marketing, and they have responded. Chairman Majoras of the 
Federal Trade Commission recently said, marketing can be part 
of the solution. And we agree. Food and beverage advertisers, 
accounting for over two-thirds of all TV advertising to 
children under 12, have announced their commitment to devote 
the majority of their messages to healthy choices and 
lifestyles as part of a new children's food and beverage 
advertising initiative which was launched last November under 
the auspices of the Council of Better Business Bureaus. In 
addition to shifting a mix of advertising messages to children 
to encourage healthier choices and lifestyles, participating 
companies commit to apply similar principles to interactive 
games and to licensed characters. And also to not advertise 
food or beverage products in elementary schools and not to 
engage in product placement in editorial and entertainment 
content.
    Charter participants are Cadbury Schweppes USA, Campbell 
Soup Company, the Coca-Cola Company, General Mills, Inc., the 
Hershey Company, Kellogg Company, Kraft Food Inc., McDonald's, 
PepsiCo, Inc. and Unilever. We all know that marketing will be 
part of the solution, and our industry will not be the only one 
involved.
    Public health authorities and experts in the U.S. and 
abroad have told us that success will depend on an 
unprecedented partnership of stakeholders from all sectors of 
society. We need to join forces, and we know from experience 
that we can achieve great results, and we do. In the last 3 
years, GMA members have contributed over $100 million for 
nutrition and health-related activities and grants to 
communities that represents over 30 percent of the total 
charitable contributions. In particular, effective 
communication of sound nutrition guidance and promotion of 
healthy lifestyle is essential, and the U.S. Government plays a 
pivotal role in setting national policy in this area. GMA has 
undertaken a number of initiatives to augment Government's 
efforts to reach consumers and to ensure, for example, that the 
new U.S. dietary guidelines are relevant and useful tools in 
consumers' everyday lives.
    Let me conclude with this, there is simply too much at 
stake for us to fail. The food and beverage industry has 
responded to the challenge, and we remain committed. But we all 
know that one industry can't win the battle alone. We can 
introduce new products and choices to the public. We can 
promote healthier lifestyles, and we can even remind folks that 
eating is fun now and then. Advertising can help consumers 
choose healthier lifestyles and healthier diets, but consumers, 
parents, teens and children must make those decisions, and they 
will need the support from every sector of society today. So 
thank you.
    [The prepared statement of Ms. Sophos follows:]

                        Testimony of Mary Sophos

    Thank you for the opportunity to be here today. Reducing 
childhood obesity and encouraging healthy lifestyles for 
children and adults is an important cause that the food 
industry has made one of its top priorities.
    The Grocery Manufacturers/Food Products Association is the 
largest trade association representing the world's leading 
food, beverage and consumer packaged goods companies. In the 
wake of the Surgeon General's alert to the Nation about the 
rising trends of obesity in this country--and indeed around the 
world--in 2003 GMA's Board declared our goal of working to 
``help arrest and reverse the growth of obesity around the 
world. Achieving this goal will require multiple strategies, 
the integrated efforts of many sectors, and long-term resolve. 
We are committed to doing our part and will support others in 
doing theirs.''
    Experts in the U.S. and around the world agree that an 
effective solution to the problem requires a comprehensive 
approach to incorporating sound nutrition, increased physical 
activity, consumer education and community support. 
Collaborations and partnerships with stakeholders across the 
spectrum of government, academia, the public health community, 
the private sector, schools, non-profits, and parents are 
critical if we are to succeed.
    The food and beverage industry recognizes that it can 
improve the situation by providing a wider range of nutritious 
product choices and marketing these choices in ways that 
promote healthy lifestyles. We also recognize and have focused 
on the importance of achieving a balance of physical activity 
and nutrition throughout life; the need for improved awareness 
and understanding by the public of nutrition and of the concept 
of energy balance; responsible advertising practices that take 
into account the special needs of children; clear 
communications across labeling, packaging, Web sites, 
brochures; in-store communications to enable consumers to make 
informed choices; and the need to work in partnership with 
other stakeholders in all of these endeavors.

                  Product Innovation and Reformulation

    The most important effort that the food industry has 
undertaken to help Americans live healthier lifestyles is the 
introduction of ten thousand new and reformulated products over 
the past five years. Virtually all companies are enhancing 
nutritional choices for consumers. Respondents to a 2006 GMA/
FPA health and wellness survey of its membership reported that 
98 percent of companies are reformulating and introducing new 
products. Individual companies are making meaningful nutrition 
enhancements in their broad product portfolios with products 
that offer reduced calories, reduced saturated and trans fat, 
reduced sodium and sugar, and with added whole grains, fiber 
and micronutrients. The overall impact these product changes 
are having on the nation's food supply and on the increased 
selection of healthier foods for consumers is impressive and 
unprecedented.
    Those product innovations can be broken down into the 
following categories:
     Development of products with low- or reduced-calorie 
options. Those companies participating in the GMA/FPA health 
and wellness survey reported that they had introduced more than 
1,300 reduced-calorie products since 2002.
     Development of products with low, reduced sugar and 
carbohydrates. Those companies participating in the GMA/FPA 
health and wellness survey reported that they had introduced 
more than 1,200 products offering reduced sugar and 
carbohydrates since 2002.
     Reducing or eliminating saturated or trans fat. Those 
companies participating in the GMA/FPA health and wellness 
survey reported that since 2002 they had introduced more than 
7,800 products and sizes with reduced saturated fat and trans 
fat.
     Reducing salt content. Those companies participating in 
the GMA/FPA health and wellness survey reported that they had 
reduced sodium in nearly 700 products since 2002.
     Development of products fortified with specific minerals 
and vitamins. Fortified vitamins and minerals can be found in 
nearly 1,000 products introduced since 2002 by those companies 
participating in the GMA/FPA health and wellness survey.
     Increasing the range of portion sizes. Food and beverage 
companies have been working to help consumers manage their food 
intake. The GMA/FPA health and wellness survey found that half 
of all respondents had changed multi-serve packaging or were in 
the process of making changes, amounting to modifications of 
more than 350 products and sizes. Sixty-one percent had changed 
single-serve packaging or were in the process of making 
changes, affecting more than 450 products and sizes. The 
greatest focus has been on children, where 55 percent of 
respondents indicated they had created sizes for kids or were 
in the process of making changes to more than 400 products.
    Finally, companies are also increasing the use of whole 
grains and fiber and developing products with specific health 
benefits.

                    Advertising, Marketing and Media

    And how do people find 10,000 new and improved products? 
Overwhelmingly, the information is carried by the media 
represented here today--TV, radio, newspapers, magazines and 
Web sites will carry messages about the healthy and tasty 
choices to millions of consumers in homes across the country. 
GMA/FPA members strive to deliver messages that are ethical and 
accurate. The industry plays a central role as key communicator 
of healthy lifestyles to Americans through marketing and 
advertising, and our members take this responsibility very 
seriously. And we have systems in place to make sure we 
succeed. We have always had the best voluntary system of self-
regulation in the world, and the Council of Better Business 
Bureaus has just made it better. GMA/FPA is a proud supporter 
of Children's Advertising Review Unit and participated in the 
recent modernization and strengthening of the CARU guidelines.
    Our members have been challenged to do even more with our 
marketing, and we are answering the call. Chairman Majoras of 
the Federal Trade Commission recently said marketing can be 
part of the solution, and we agree. Food and beverage 
advertisers accounting for over two-thirds of all TV 
advertising to children under 12 have announced their 
commitment to devote the majority of their messages to healthy 
choices and lifestyles. The Council of Better Business Bureaus 
launched the Children's Food and Beverage Advertising 
Initiative in November 2006-- a voluntary self-regulation 
program designed to shift the mix of advertising messages to 
children to encourage healthier dietary choices and healthy 
lifestyles. Here is how CBBB describes the program:
    Under the terms of the Initiative, participating companies 
commit to:

    <bullet>   Devote at least half their advertising directed 
to children on television, radio, print and Internet to promote 
healthier dietary choices and/or to messages that encourage 
good nutrition or healthy lifestyles.
    <bullet>   Limit products shown in interactive games to 
healthier dietary choices, or incorporate healthy lifestyle 
messages into the games.
    <bullet>   Not advertise food or beverage products in 
elementary schools.
    <bullet>   Not engage in food and beverage product 
placement in editorial and entertainment content.
    <bullet>   Reduce the use of third-party licensed 
characters in advertising that does not meet the Initiative's 
product or messaging criteria.

    Each participating company will submit to the CBBB a 
commitment, tailored to the company's product portfolio, which 
complies with the principles of the Initiative. Company 
commitments that identify better-for-you dietary choices must 
be consistent with established scientific and/or government 
standards.
    Charter participants are Cadbury Schweppes USA; Campbell 
Soup Company; The Coca-Cola Company; General Mills, Inc.; The 
Hershey Company; Kellogg Company; Kraft Foods Inc.; McDonald's; 
PepsiCo, Inc. and Unilever. We expect to hear announcements of 
their pledges very soon.
    An essential element of effective self-regulation is a 
strong monitoring and enforcement component, and the CBBB 
Initiative contains several important monitoring and 
enforcement provisions, all of which will be available to the 
public and the FTC. Monitoring and enforcement will include:

    <bullet>   Review of advertising materials, product 
information, and media impression information (submitted on a 
confidential basis) to confirm participant compliance. The 
program will also respond to public inquiries relating to 
compliance.
    <bullet>   Develop procedures that provide for the 
expulsion of a company that does not comply with its Pledge 
after being given notice and an opportunity to bring its 
conduct into compliance and notice of any expulsion to 
regulatory authorities such as the Federal Trade Commission 
under appropriate circumstances.
    <bullet>   Publicly issued reports detailing its 
activities, including any expulsions or notices of such to 
regulatory authorities.
    <bullet>   Periodic review of its procedures and the 
overall impact of this initiative.

    Organizations participating in this initiative have also 
agreed to use the Ad Council's Coalition for Healthy Children's 
messaging to fulfill their commitments to promote healthy 
lifestyles among youth. The Coalition's messages have been 
developed and extensively researched by the Ad Council and made 
possible by a grant from the Robert Wood Johnson Foundation. 
The goal of the program is to provide Coalition members, which 
include non-profit, government and corporate entities, with a 
set of unified communications focused on key lifestyle 
behaviors. The initial round of messages center around three 
areas: Physical activity, portion control and energy balance.
    In conjunction with the launch of the CBBB Children's Food 
and Beverage Advertising Initiative last November, the CBBB 
also announced a revision of the guidelines that the Children's 
Advertising Review Unit applies to advertising directed to 
kids. Again, in the words of CBBB,
    The revised CARU Guidelines have been expanded to:

    <bullet>   Provide new authorization for CARU to take 
action on advertising targeted to children that is ``unfair,'' 
in addition to advertising that is misleading.
    <bullet>   Specifically address ``blurring,'' or 
advertising that obscures the line between editorial content 
and advertising messages. A new provision, which applies across 
all media, prohibits advertising that ``blurs the distinction 
between advertising and program/editorial content in ways that 
would be misleading to children.''
    <bullet>   Specifically address the use of commercial 
messages in interactive games, sometimes referred to as 
advergaming. The revised Guidelines require that ``if an 
advertiser integrates a commercial message into the content of 
a game or activity, then the advertiser should make clear, in a 
manner that will be easily understood by the targeted audience, 
that it is an advertisement.''

         Collaborations, Partnerships and Community Initiatives

    We all know that marketing will only be a part of the 
solution. And the food industry will be only one of the 
important groups working for it. Every public health authority 
that has spoken on the subject--CDC, the Surgeon General, HHS, 
IOM, WHO--has told us that success will depend on an 
unprecedented partnership of stakeholders from all sectors of 
society. Quoting from the 2006 IOM Report Progress in 
Preventing Childhood Obesity: How Do We Measure Up?, 
``Addressing the childhood obesity epidemic is a collective 
responsibility involving multiple stakeholders and different 
sectors--including the Federal Government, state and local 
governments, communities, schools, industry, media, and 
families.'' We need to join forces, and GMA/FPA members know 
from experience that we can achieve great results when we do.
    We asked 50 GMA/FPA members what they were doing in the 
area of health and wellness, and over three quarters of them 
told us that they are conducting consumer health promotions in 
local communities and partnering with public health 
organizations. Nearly 90 percent of the companies surveyed 
support national or local health and wellness initiatives. In 
the last three years, GMA/FPA members have contributed over 100 
million dollars for nutrition and health-related activities and 
grants to communities representing over 30 percent of total 
charitable contributions. Let me give you just a few examples:

    <bullet>   GMA/FPA and individual companies have joined the 
Ad Council's Coalition for Healthy Children: Combating 
Childhood Obesity campaign
    <bullet>   ``Triple Play'' program. ``A $12 million joint 
health and nutrition program held in partnership with Kraft, 
Coca-Cola and the Boys & Girls Clubs of America.
    <bullet>   General Mills sponsors the Champions for Healthy 
Kids--A program that awards 50 grants of $10,000 each to 
grassroots organizations each year to support innovative 
efforts that teach and promote youth nutrition and fitness 
habits. The program will celebrate its 5th anniversary this 
year and has committed $8,000,000 over the past four years.
    <bullet>   Kraft partners with the National Latino 
Children's Institute in ``Salsa, Sabor y Salud,'' a healthy 
lifestyle course for Latino families in the U.S.
    <bullet>   Kellogg Company sponsors Earn Your Stripes--an 
initiative that is designed to help kids build their 
confidence, stay fit and at the same time have fun.
    <bullet>   PepsiCo, Kellogg Company and General Mills are 
corporate sponsors of the Partnership for Play Every Day, a 
collaboration convened by the YMCA of the USA, National 
Recreation and Park Association and National Association for 
Sport and Physical Education. Its focus is to bring together 
the public, private and non-profit sectors to advance policies, 
programs and practices that ensure all children and youth 
engage in at least 60 minutes of physical activity every day.
    <bullet>   Dannon awarded to selected community 
organizations the first ``Dannon Next Generation Nutrition 
Grants'' which support improvement in children's nutrition 
education.
    <bullet>   Hershey sponsors the Hershey's Track and Field 
Games, the longest-running youth fitness program of its kind in 
North America. In 2007, Hershey will conduct a sustained 
awareness-building campaign with the National Recreation and 
Park Association to encourage increased youth participation in 
the program's local and state-level events.

    Together, the food and beverage industry in partnership 
with our retail partners and MatchPoint Marketing have launched 
an in-store promotion campaign ``Take a Peak into MyPyramid'' 
to provide information about MyPyramid and the 2005 Dietary 
Guidelines to consumers in the grocery store aisles where 
shoppers ultimately make their food choices. Take a Peak 
represents the largest collective effort to date--including 
education and sales promotion--by the food and beverage 
industry to build an environment that supports Americans' 
efforts to live healthier lifestyles. Through clear and simple 
in-store point-of-purchase messaging, Take a Peak provides 
easy-to-follow advice that shows consumers how small, 
progressive changes in their product purchasing habits can 
improve their diets and their health. The campaign displays the 
tremendous efforts of the industry to change the food supply to 
make it easier for Americans to eat a healthier diet.
    The campaign has grown to 32 retailers in over 5,500 stores 
in 30 states. Multiple Hispanic retailers are undertaking a 
Spanish execution of Take a Peak. Retailers that have completed 
executions are signing on for fall 2007 and January 2008. New 
retailers are selecting more elements than early adopters based 
on the positive response from consumers and continuing media 
coverage. Preliminary sales data is extremely positive, 
demonstrating that consumers are changing behavior.
    Take a Peak will reach millions of Americans through 
educational mailer coupon booklets, point of purchase messages 
and materials, including aisle banners, informational kiosks, 
floor graphics, wobblers, displays, shopping lists and other 
means. The program will also increase consumer demand and sales 
for the foods and beverages that the Federal Government 
recommends consumers eat more of to get essential nutrients and 
build a healthy diet.
    Retailers can customize Take a Peak to meet the diverse 
ethnic and cultural needs of their local shoppers, bringing it 
further to life for shoppers.
    Finally, we are exploring opportunities to link Take a Peak 
to an ongoing collaboration between the Ad Council and USDA to 
promote MyPyramid in specific communities that may be at higher 
risk.
    Let me spend a little more time telling you about another 
particular partnership that I think has great promise. It 
combines the two most basic elements of a healthy lifestyle--
nutrition and physical education.
    In 2007, the American Council for Fitness and Nutrition 
Foundation, which was founded by food and beverage 
manufacturers to promote healthier lifestyles, will conduct a 
pilot program in schools in the greater Kansas City-metro area 
in partnership with PE4Life and the American Dietetic 
Association Foundation. The school pilot will implement a cross 
discipline ``energy balance'' approach that focuses both on 
energy intake and energy expenditure. Physical education 
teachers and nutrition ``coaches'' will work side by side in 
the schools to implement strategies to get the students to be 
more active and to eat a more balanced and nutritious diet. The 
lessons learned from the pilot will allow us to create a 
blueprint for student health and wellness that could be 
replicated in schools across America. Support from a broad 
cross-section of interests will be critical to achieving 
effective scale for this project. In addition, the Kansas City 
Public Television PBS will be documenting physical activity and 
nutrition policies within schools this fall, and we hope that 
it will help to spur even greater interest.
    Food and beverage, advertising and media companies continue 
to support the Ad Council's The Healthy Lifestyles PSA 
campaign, which is a partnership between the Ad Council and the 
U.S. Department of Health & Human Services (HHS). Since its 
launch in March 2004, the program has garnered approximately 
$270 million in donated media support. The campaign Web site 
attracted an average of 190,000 visits per month during 2006 
and holds visitors' interest for an average of 6\1/2\ minutes. 
In addition, consumer tracking research data indicates the 
beginnings of positive changes in attitudes and behaviors 
around the campaign messages.
    The Ad Council's Coalition for Healthy Children was 
initiated in 2005 to complement and increase the impact of 
their PSA efforts and has focused on developing consistent, 
research-based messaging for marketers, media, government 
agencies, non-profits, academics and the private sector. The 
Robert Wood Johnson Foundation provided support for the Ad 
Council's research and development of these health messages, 
which will ultimately be disseminated to the public by 
Coalition member organizations such as PepsiCo, General Mills, 
Kraft Foods, Kellogg, Coca-Cola, SUBWAY, McDonald's, American 
Heart Association, Girls Scouts of the USA, Shaping America's 
Health, Nickelodeon, Cartoon Network and Univision 
Communications.
    GMA/FPA and our member companies have also been 
collaborating with government to promote the new U.S. Dietary 
Guidelines and MyPyramid consumer education platform with the 
goal of making the Dietary Guidelines relevant to consumers' 
everyday lives and to balance energy intake with energy 
expenditure. Our efforts to help ensure that the updated 
Dietary Guidelines and the Food Guide Pyramid were relevant to 
all Americans has specifically included initiatives to overcome 
potential barriers that may exist--specifically socioeconomic 
and cultural factors--in understanding and using these tools.
    On the same day the Federal Government released its new 
Food Guide Pyramid, GMA/FPA announced a partnership with the 
Weekly Reader Corporation to promote the new Food Guidance 
System through a national education campaign reaching an 
estimated 4 million teachers, students and their family 
members. The campaign consisted of a teacher's guide; math, 
nutrition and science activities; and a bilingual parent take-
home component in English and Spanish. More than 58,000 posters 
were distributed to Weekly Reader teacher subscribers in fall 
2005, coinciding with the start of the school year.
    Industry funding has helped the Weekly Reader MyPyramid 
curriculum reach underserved populations. A Spanish translation 
of the curriculum, paired with the English-language materials, 
has been distributed free of charge to schools with high-
Hispanic populations. Through a partnership with America's 
Second Harvest--The Nation's Food Bank Network, the MyPyramid 
curriculum has been distributed in 1,300 Kids Cafes, after-
school programs that serve free, hot, nutritious meals to 
hungry children in a safe environment. Kids Cafes combine meals 
with other activities, including nutrition education, cooking 
and tutoring.
    In 2006, GMA/FPA funded reprints of the Weekly Reader 
materials for incoming 4th graders for the 2006-07 school year, 
including targeted Spanish-language versions.
    As part of our commitment to partnerships, GMA/FPA and five 
member companies are also participating in the Joint Media Task 
Force on Media and Childhood Obesity. GMA/FPA chose to 
participate because we think that this kind of engagement 
affords us a unique opportunity to build partnerships with an 
important group of stakeholders and through greater 
collaboration increase our chances of achieving the goal that 
we all share--health and fitness for our kids and ourselves. 
One of the most valuable aspects of this initiative has been 
the chance to learn in greater detail about the tremendous 
ongoing efforts of so many of the groups on the Task Force, 
including the media groups, the advertising community, advocacy 
groups and those in the public health community. Just one 
example of a possible future collaboration identified in Task 
Force discussions may be greater support for initiatives to 
promote more time spent on family activities, including the 
family dinner hour. There is growing evidence that the simple 
matter of families eating together results in a whole host of 
positive outcomes, including healthier nutrition habits.
    As you in the Congress grapple with how best to address 
this problem, we urge you to keep in mind the 2004 Institute of 
Medicine report that identifies ten broad areas that all levels 
of government, business and individual citizens must address to 
reverse these alarming trends in childhood obesity. One of 
those ten areas involves media and advertising, but the report 
focused on many other essential elements and concluded that no 
single measure can be expected to solve the problem. Multiple 
strategies and the commitment of many stakeholders will be 
necessary to address this important public health issue. We 
believe that in the future among the things we can do working 
together are the following:

    <bullet>   Incorporate nutrition education and physical 
activity in our nation's schools;
    <bullet>   Continue to find additional ways to encourage 
people to incorporate physical activity in their daily lives;
    <bullet>   Educate the public on the connection between 
calories consumed and calories burned and provide the tools for 
individuals to understand and assess their caloric needs;
    <bullet>   Raise consumer awareness of proper serving 
sizes;
    <bullet>   Encourage employers to promote employee 
wellness; and
    <bullet>   Address the needs of different population 
groups.

    There is too much at stake for us to fail; the food and 
beverage industry has responded, and we remain committed to the 
task. But we all know that one industry cannot win the battle 
alone. We can introduce new products and choices to the public, 
we can promote healthier lifestyles, and we can even remind 
folks that eating is fun now and then. Advertising can help 
consumers choose healthier lifestyles, but consumers--parents, 
teens and children--must make those decisions. They will need 
support from every part of society.
                              ----------                              

    Mr. Markey. Thank you very much.
    And our next witness is Ms. Patti Miller, who is the vice 
president and director of children and the media for Children 
Now. Welcome.

    STATEMENT OF PATTI MILLER, VICE PRESIDENT, CHILDREN NOW

    Ms. Miller. Entertainment and media play a powerful and 
ubiquitous role in the lives of our Nation's children. Children 
spend more time with media than they spend doing anything else, 
except for sleeping. They look for media in all its forms for 
their role models, often imitating their favorite characters' 
style of dress, attitudes and behaviors.
    Yet much of what children see in the media can have a 
serious negative impact on their physical health and well-
being. According to the Centers For Disease Control and 
Prevention, tobacco use in movies is a major factor in teen 
smoking. Hundreds of research studies show that children who 
are exposed to violent programming face a higher risk of 
suffering from harmful consequences, including a belief that it 
is acceptable to behave aggressively and violently and 
increased desensitization towards violence in real life, a 
greater tendency for engaging in violent behavior later in 
life, and a heightened fear of becoming a victim of violence.
    Finally, the Institute of Medicine has found strong 
compelling evidence that television advertising influences the 
food and beverage preferences, purchase requests and 
consumption habits of children. Children Now thanks Chairman 
Markey and the Subcommittee on Telecommunications and the 
Internet for hosting this hearing today to address the role of 
media in children's health. It could not come at a more crucial 
time. We are facing a public health crisis. For the first time 
in modern history, we have a generation of children whose life 
expectancy may be lower than that of their parents because of 
childhood obesity. The U.S. surgeon general has identified 
overweight and obesity as the fastest-growing cause of disease 
and death in America.
    While there is a confluence of factors that contribute to 
childhood obesity, advertising is one of those factors, and it 
is a significant one. American companies are spending $15 
billion a year advertising and marketing to children under the 
age of 12, and that is twice the amount they spent just 10 
years ago. Children are exposed to thousands of food ads every 
year on television alone, the majority of which are for candy, 
snacks, cereal and fast foods. In addition, a recent Kaiser 
Family Foundation study found that 85 percent of the top food 
brands targeting kids TV also used branded Web sites to market 
to kids, using a range of strategies including advergames, 
viral marketing sweepstakes, promotions, memberships and online 
TV ads.
     So why does this matter? Research shows that young 
children are uniquely vulnerable to commercial persuasion. 
Children under the age of 8 do not recognize the persuasive 
intent of ads, and they tend to accept them as accurate and 
unbiased. In fact, research shows that 30-second commercials 
influence food preferences in children as young as 2 years old.
    Congress and the FCC have recognized children's 
vulnerability and have placed limits on the amount of 
advertising during children's shows and established rules about 
how children's TV characters can be used to pitch products to 
them. But that is simply not enough to protect children from a 
food advertising environment that is currently skewed toward 
promoting unhealthy, nonnutritious food to the Nation's youth. 
In December 2005, the Institute of Medicine released a report 
that concluded, ``Food and beverage practices geared to 
children are out of balance with healthful diets and contribute 
to an environment that puts children's health at risk.''
    Children Now believes that in order to address the role of 
advertising and marketing in the childhood obesity epidemic, we 
must focus on and ensure the implementation of two Institute of 
Medicine recommendations. The industry must, one, shift the 
balance of advertising and marketing targeted to kids to foods 
and beverages that are substantially lower in calories, fat, 
salts, and added sugars and higher in nutrient content. This 
should be across media platforms. Two, use licensed characters 
only to promote food and beverages that support healthful diets 
for children and youth. Licensed characters should not be used 
to sell food and beverages that are high in fat, calories, 
salt, added sugars, and low in nutrient content.
    Children Now is currently working with the media industry, 
food and beverage companies, advertising associations, and 
advocacy and public health organizations on the Task Force on 
Media and Childhood Obesity at the request of Senator 
Brownback, Senator Harkin, and the FCC. The task force is 
currently engaged in discussions and working recommendations 
with a final report scheduled for release this summer. It is 
our hope the task force will achieve meaningful solutions to 
address the advertising and marketing of unhealthy foods to 
kids. However, if the task force is unable to address these 
issues sufficiently, we believe that Congress needs to 
intervene on behalf of the Nation's children. We must work 
towards tangible, real solutions to improve the media 
environment for our Nation's kids, and we must act now. Our 
children's health depends on it.
    Thank you.
    [The prepared statement of Ms. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.013
    
    [GRAPHIC] [TIFF OMITTED] 42798.014
    
    [GRAPHIC] [TIFF OMITTED] 42798.015
    
    [GRAPHIC] [TIFF OMITTED] 42798.016
    
    [GRAPHIC] [TIFF OMITTED] 42798.017
    
    Mr. Markey. Thank you, Ms. Miller, very much.
     Our next witness is Kyle McSlarrow. He is the president 
and chief executive officer of the National Cable and 
Telecommunications Association.
    We welcome you back before the committee, and whenever you 
are ready, please begin.

STATEMENT OF KYLE McSLARROW, PRESIDENT AND CEO, NATIONAL CABLE 
                & TELECOMMUNICATIONS ASSOCIATION

    Mr. McSlarrow. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. And thank you for having me here 
to testify on this set of important issues.
    I think the starting place for us, Mr. Chairman, is that we 
don't believe that society, acting principally through you as 
policymakers and parents should be forced to choose between 
protecting the first amendment and protecting children. Now, 
that means a lot of people have to step up and act responsibly 
in order to achieve that goal, and our industry is very much at 
the forefront of that.
    If you think about the set of issues that sort of swirl 
around violence and decency, profanity, family programming, 
general audience viewing, the cable industry, I would assert, 
has done more than any other industry to ensure that 
households, parents, families have more family-friendly viewing 
than any other industry. You look at cable networks like Disney 
Channel, Nickelodeon, Sprout, PBS, other networks that are 
devoted specifically to children, you have got Hallmark and 
other channels that are devoted to family viewing, the list is 
actually so long that I would use the remaining few minutes of 
my time. The point is there is a plethora of choices in this 
model with cable programming that is providing exactly the kind 
of programming that everybody says that they want.
    We also are attempting to provide tools to ensure that for 
the other sets of programming where there is clearly going to 
be content that is unsuitable for children, that parents have 
the ability to control and shape how that content is viewed in 
the home. Now, I am not going to argue that those tools are 
perfect, but they are pretty good.
    Now, obviously, as you said at the outset, Mr. Chairman, 
you are the author of the v-chip legislation. Every cable 
household actually has that option. It is not just broadcast 
households. But in addition to that, cable and satellite 
companies have developed increasingly sophisticated parental 
controls. So these are controls that in today's world, 
particularly with digital set-top boxes, you can control so 
that you can block by time, by channel, by program, clearly by 
age rating, by content descriptors that are at the bottom of 
the rating. So language, dialog, and violence and so forth, you 
can block. If a program is not rated, there is actually an 
ability now to block that. And you can hide titles and some of 
the information that themselves may be unsuitable for children 
from being even shown on a program guide.
    So all of these tools are available today, and in most 
households, certainly any household that has bought a TV since 
the year 2000 that has a v-chip in it, and certainly in those 
households which are digital cable households, you have all 
these tools. We still have a large customer base that is 
analog. They have some of those tools. They are not perfect. 
But increasingly, all of those people will be in a digital 
household.
    So with the family viewing that we do have, the tools that 
we provided to help parents control other programming that may 
be unsuitable, we are left with a couple of policy decisions. 
One is are parents even using those tools? Do they know about 
them? And are we making them as easy as we can for them?
    I think there is a lively debate about whether or not 
parents actually understand and are deciding affirmatively to 
use parental controls or rejecting them. But I don't think it 
much matters from our point of view in terms of acting 
responsibly. The industry for over a decade has stepped up to 
engage a partnership at its origins with the national PTA to 
engage in media literacy not just surrounding television, it is 
broader than that, but it specifically included literacy to try 
to educate parents about the choices that they have in front of 
them.
    More recently the cable industry has engaged in a massive 
public service announcement campaign. Many members of this 
committee actually participated in PSAs, and we thank you for 
that, trying to get the message out about the v-chip and 
parental controls. And then more recently even than that, the 
entire media industry, so organizations like NAB and MPAA, the 
satellite industry, cable industry, got together to do the TV 
Boss campaign. And we are roughly in the middle of that 
campaign now, which is another $300 million media campaign to 
tell parents about the tools they have, to drive them to Web 
sites and to other sites that have information so they can use 
them.
    I can't report today that every parent is using the v-chip 
or parental controls. I can report that most of the data that 
we are seeing shows some modest improvement, a lot more 
awareness, and we are willing to keep working this problem.
    And really I would end where I started, Mr. Chairman, which 
is if we are trying to avoid putting people to the test of the 
first amendment, certainly we want to make sure that we are 
protecting children, our industry very much wants to work with 
you and this entire subcommittee on how we can make what is a 
pretty good system, but not a perfect system, better.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McSlarrow follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.018
    
    [GRAPHIC] [TIFF OMITTED] 42798.019
    
    [GRAPHIC] [TIFF OMITTED] 42798.020
    
    [GRAPHIC] [TIFF OMITTED] 42798.021
    
    [GRAPHIC] [TIFF OMITTED] 42798.022
    
    [GRAPHIC] [TIFF OMITTED] 42798.023
    
    [GRAPHIC] [TIFF OMITTED] 42798.024
    
    [GRAPHIC] [TIFF OMITTED] 42798.025
    
    [GRAPHIC] [TIFF OMITTED] 42798.026
    
    [GRAPHIC] [TIFF OMITTED] 42798.027
    
    [GRAPHIC] [TIFF OMITTED] 42798.028
    
    [GRAPHIC] [TIFF OMITTED] 42798.029
    
    [GRAPHIC] [TIFF OMITTED] 42798.030
    
    [GRAPHIC] [TIFF OMITTED] 42798.031
    
    Mr. Markey. Thank you, Mr. McSlarrow.
     And our next witness is Jon Rand. He is the general 
manager of several local television stations in Washington 
State and in Idaho. Welcome, sir.

 STATEMENT OF JON RAND, GENERAL MANAGER, KAYU FOX 28, SPOKANE/
                   COEUR D'ALENE, SPOKANE, WA

    Mr. Rand. Thank you. Good morning, Chairman Markey, Ranking 
Member Upton. My name is John Rand, and I am the general 
manager of three Fox affiliate stations, serving all of eastern 
Washington and northern Idaho, broadcasting out of Spokane. I 
am here today to testify on behalf of the National Association 
of Broadcasters about the issue of childhood obesity and the 
efforts my stations have taken to fight this battle.
    Education is key to combating obesity challenges facing our 
children and families. Therefore, our stations have chosen to 
play a part in reversing this trend. The result of that 
commitment is a campaign called Healthy Choices = Healthy 
Families. The genesis for this campaign becomes evident when 
you consider the facts. According to the Centers for Disease 
Control, the prevalence of overweight children ages 6 to 11 has 
more than doubled in the past 20 years. The rate among 
adolescents ages 12 to 19 has more than tripled.
    Just as frightening are the health risks associated with 
obesity in children. For example, overweight children and 
adolescents are more likely to have high blood pressure, high 
cholesterol, and type 2 diabetes.
    The goal of our Healthy Choices = Healthy Families campaign 
is to utilize the power of television and the Internet to make 
a difference in the health of our children. This campaign, 
which began in January 2007, is a three-pronged effort. First, 
we have trademarked and branded the Healthy Choices = Healthy 
Families logo and created public service announcements aimed at 
children and their parents. To date we have created 16 
different PSAs that we are showing at all times of the day and 
every day of the week.
    To give you a flavor of what we are doing, I would like to 
share with the committee one of the PSAs that we have produced.
    [Videotape played.]
    Mr. Rand. The second prong of the campaign involves 
utilizing our news broadcasts to inform our viewers about the 
threats from childhood obesity.
    Lastly, we have launched a Healthy Choices = Healthy 
Families Web site, filled with resources that families can use 
to find expert knowledge and helpful tips about nutrition, 
exercise and childhood obesity. This site directs visitors to 
information provided by health professionals about childhood 
obesity, including how overweight is defined, the prevalence of 
children who are overweight, the factors associated with being 
overweight, and the related health consequences. In fact, we 
have partnered with Sacred Heart Children's Hospital in 
Spokane. And I have attached a letter to my testimony from the 
hospital indicating that because of the PSAs, viewers are 
utilizing the Web site to ask for help and information. This is 
a campaign to which we are dedicated for the long term. We plan 
to keep the information fresh and continually add new research 
to educate our viewers.
    While I agree that we need to view the issue of childhood 
obesity as a serious national dilemma, I do not believe that 
regulation of children's advertising is the best way to solve 
this problem. I fear that regulation of that kind of 
advertising may diminish the availability and quality of 
children's programming. The harder it is to find advertising 
for children's programming, the harder it is to convince the 
creative community to produce high-quality programming.
    At my Spokane station over the last few years advertising 
in children's programming has dwindled. In the late 1990s, we 
had just over a million dollars in children's advertising on 
our station. In 2007, we had $2,415 in children's advertising. 
The main reason for this dramatic change is that much of 
children's programming, and consequently the advertising, has 
migrated to cable networks where there are niche channels 
geared specifically to children.
    There are many factors that contribute to childhood 
obesity. Computers, video games and television all contribute 
to a child's inactive lifestyle. But the solution to this 
problem is found well beyond what kids see on broadcast 
television. Children must be encouraged to exercise. Parents 
must take the responsibility for providing their children 
healthy foods, and schools should serve nutritious meals and 
reinstate physical education.
    As a broadcaster, I take my responsibility to my local 
community seriously. It is because of this responsibility that 
we have undertaken this Healthy Choices = Healthy Families 
campaign against childhood obesity.
    Thank you, Mr. Chairman, for inviting me here today, and I 
welcome any questions.
    [The prepared statement of Mr. Rand follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.032
    
    [GRAPHIC] [TIFF OMITTED] 42798.033
    
    [GRAPHIC] [TIFF OMITTED] 42798.034
    
    [GRAPHIC] [TIFF OMITTED] 42798.035
    
    [GRAPHIC] [TIFF OMITTED] 42798.036
    
    [GRAPHIC] [TIFF OMITTED] 42798.037
    
    [GRAPHIC] [TIFF OMITTED] 42798.038
    
    [GRAPHIC] [TIFF OMITTED] 42798.039
    
    [GRAPHIC] [TIFF OMITTED] 42798.040
    
    [GRAPHIC] [TIFF OMITTED] 42798.041
    
    [GRAPHIC] [TIFF OMITTED] 42798.042
    
    [GRAPHIC] [TIFF OMITTED] 42798.043
    
    [GRAPHIC] [TIFF OMITTED] 42798.044
    
    [GRAPHIC] [TIFF OMITTED] 42798.045
    
    Mr. Markey. Thank you, Mr. Rand, very much.
    Our final witness is Mr. Adam Thierer. He is a senior 
fellow and director of the Center for Digital Media Freedom at 
the Progress and Freedom Foundation.

STATEMENT OF ADAM D. THIERER, SENIOR FELLOW, PROGRESS & FREEDOM 
                           FOUNDATION

    Mr. Thierer. Thank you, Mr. Chairman and members of the 
committee, for inviting me here today to testify on this issue. 
My name is Adam Thierer, and I am a senior fellow with the 
Progress and Freedom Foundation, a think tank here in 
Washington, DC. This hearing is particularly timely for me 
because just this week the Progress and Freedom Foundation has 
released this new special report I have spent the last 2 years 
compiling, entitled ``Parental Controls and Online Child 
Protection: A Survey of Tools and Methods.'' The booklet 
provides a broad survey of everything that is on the market 
that can help parents better manage media content today, 
whether it be on broadcast television, cable or satellite TV, 
music devices, mobile phones, video game consoles, the 
Internet, or even social networking Web sites.
    Incidentally, the booklet can be downloaded free of charge 
on the PFF.org Web site, and I plan on making frequent updates 
to the publication as new information comes to my attention.
    As I note in my book, we live in an always on, interactive 
multimedia world. Parents need to be prepared to deal with 
media on multiple platforms, screens and devices. While this 
can be a formidable challenge, luckily there has never been a 
time when parents have had more tools and methods at their 
disposal to help them determine and enforce what is acceptable 
in their homes and in the lives of their children. And that 
conclusion is equally applicable to all major media platforms 
or all the screens our children might view.
    In the past, the off button was the only technical control 
at parents' disposal. Today, by contrast, parents like me have 
myriad tools and methods to restrict or tailor media content to 
their own household tastes or values. I could spend all my time 
here today discussing merely those restrictive tools that could 
help parents block or curtail media. Those tools include, of 
course, the v-chip and television ratings, cable and satellite 
set-top box screening tools, DVD blocking controls, cell phone 
blocking tools, video game console controls and ratings, 
Internet filtering and monitoring tools, instant message 
monitoring tools, operating system controls, Web browser 
controls, search engine safe tools, and media management time 
devices, so on and so on. These devices are all extensively 
discussed in my book, along with many other tools. But while 
those restrictive tools are very important, they are only part 
of the parental control story today.
    Enabling or tailoring tools are what makes today's parental 
control market so exciting. By enabling or tailoring tools, I 
mean any tool or method that a parent might use to enable their 
families to see, hear or consume content they would regard as 
more appropriate, ethical or enriching. For example, for 
televised media, VCRs, DVD players, and personal video 
recorders have emerged as important parental control devices. 
These technologies give parents the ability to accumulate 
libraries of preferred programming for their children and then 
determine exactly where and when it will be viewed. Pay-per-
view options also help parents better tailor viewing choices. 
And don't forget about the huge and growing market for 
educational DVDs, videotapes, and computer software.
    Speaking of computers and the Internet, parents can now 
tailor their children's on-line activities in many similar 
ways. In my new book I document dozens of kid-friendly search 
engines or Internet portals that are essentially on-line walled 
gardens, filled with prescreened content and safe chat areas. 
And even in the world of mobile media, new wireless handsets 
and services offer parents the ability to not only monitor the 
content their child might try to access, but also establish 
preapproved calling lists and tailor the communications 
experience for even very young kids.
    But it is also vital we not overlook the importance of 
informal household media rules in this discussion. Oftentimes 
debates about inappropriate content get so caught up with 
disputes about technical controls, ratings, or even regulation, 
that we forget that parents often view these things merely as 
backup plans. In my book I identify four categories of 
household media rules that surveys show almost all parents use 
in some combination to control their children's media 
consumptions. This four-part taxonomy I have created is first 
``where'' rules; second, ``where and how much'' rules; third, 
``under what condition'' rules; and fourth, ``what'' rules.
    I don't have time to run through all the possible examples, 
but certainly most of us are familiar with widely used 
household rules like no watching TV or playing games until your 
homework is done or you can't watch that movie until you 
complete your chores. Such household rules can be actually far 
more effective in controlling children's media habits than 
technical controls. But debates about parental controls and 
media policy often treat them as an afterthought if they are 
discussed at all. It is time we start thinking and talking 
about them.
    Finally, let us not forget that the ultimate parental 
control tool is the power of the purse. In most cases, when 
kids want to consume a certain type of media, or even consume 
something they see advertised in the media, they need money to 
do so. Televisions, movies, video games, cell phones, computers 
and so on do not just drop into our kids' laps from a high-tech 
heaven. When our kids want those things, they have to come to 
us and ask for them. And that includes the things that are 
advertised on those platforms. And although at times it may be 
difficult for us to say no, we always have the power to do so. 
That is the ultimate way to control the images our kids see on 
the screen.
    Thank you again.
    Mr. Markey. Thank you very much, Mr. Thierer.
    [The prepared statement of Mr. Thierer follows:]
    [GRAPHIC] [TIFF OMITTED] 42798.046
    
    [GRAPHIC] [TIFF OMITTED] 42798.047
    
    [GRAPHIC] [TIFF OMITTED] 42798.048
    
    [GRAPHIC] [TIFF OMITTED] 42798.049
    
    [GRAPHIC] [TIFF OMITTED] 42798.050
    
    Mr. Markey. Five minutes on the button. You and Ms. Miller 
actually win the award for closest to the time that we asked 
you to hit.
    The Chair will now recognize himself for a round of 
questions. I will say to you, Ms. Miller, that I am prepared to 
ask the Federal Communications Commission to initiate a 
rulemaking under the Children's Television Act, which I am the 
author of, on the issues of advertising on children's 
television so that it is not inconsistent with the goals of the 
1990 Children's Television Act, which is to have educational 
and informational programming for 3 hours per week on every 
television station in America.
    So I just wanted to let you know that it is something that 
I am putting people on notice that I am really willing to 
pursue. And I think it is something that is very important that 
we ensure that that be a safe haven for kids and for parents, 
that they know that those programs are there.
    Let me ask you, if I can, Mr. Glickman--and, again, I want 
to commend you and the MPAA for including smoking as a rating 
factor in the movies. It is an important step. Now, two of our 
witnesses have proposed additional steps, which include banning 
tobacco brand imagery in movies and certifying that no one 
working on a movie took payments or other consideration from 
tobacco companies. And Ms. Healton mentioned running 
antismoking public service commercials, announcements, before 
the movie began as kind of a countermessage to children 
watching those movies. They seem like good ideas. It seems like 
that would help to mitigate this problem. Can you comment upon 
those ideas?
    Mr. Glickman. Yes. First of all, I think John Fithian is 
here from the National Association of Theatre Owners, but the 
theatre owners have run I don't know how many, many, many tens 
of thousands of spots in theatres. Many of you have seen them. 
And so those spots have run and have had great impact, and we 
certainly support that particular effort on their part.
    Mr. Markey. Have the MPAA members been asked to implement 
these types of recommendations?
    Mr. Glickman. Well, let us put it this way: we work with 
NATO in terms of on those particular spots. I just was talking 
here with Mrs. Healton about other things that we may talk 
about doing in the future. But individual companies may make 
those decisions. But I would say this: now recognizing that 
about 900 movies a year go through our ratings system, about 
300 of those are our member companies and 600 of them are 
independent producers and a lot of other people. And to the 
best of my knowledge, none of our companies are responsible for 
containing paid product placement of tobacco products in our 
motion pictures.
    Although we are not a party to the master settlement 
agreement, that is of course the tobacco companies themselves, 
we believe that is very, very important. And so what we do as a 
trade association, what my personal view on this is, we have 
got to continue to work with our companies in all possible ways 
to try to minimize the amount of smoking in movies and in the 
country as a whole. Both my parents died of lung cancer, both 
were smokers, so I have a personal interest in seeing this done 
but doing it in a way that does not abridge the normal creative 
freedom process.
    Mr. Markey. I understand that. And my father died from lung 
cancer as well. And unfortunately, as Mrs. Healton said, it is 
the most preventable of all diseases. Is it possible--and my 
father was ticked, too, when he was dying from it. He was 
really angry.
    Could you put the antismoking PSAs in the DVDs when they 
are released as well?
    Mr. Glickman. That would be a decision that each company 
would make on their own. There has been some discussion about, 
I think, one company, not one of our member companies, has 
determined to do that. But there are a lot of options that we 
are going to continue to explore both in terms of marketing 
options as well as ratings options as well.
    Mr. Markey. Could you survey the companies that you 
represent and report back to the subcommittee on which of them 
are willing to and which are not willing to put PSAs in their 
DVDs so we can identify----
    Mr. Glickman. What we would do is, in addition to that, I 
think it would be useful to have representatives of the 
companies come and talk to you all about the various programs 
that they are proposing in these areas. So we will certainly 
provide you the information that you requested and try to do 
more than that.
    Mr. Markey. OK. And just on the issue of banning tobacco 
imagery in movies, could you just comment on that as well?
    Mr. Glickman. Again, our member companies do not in their 
content, to the best of my knowledge, do not contain paid 
product placement of tobacco products in our pictures. But I 
cannot speak for every picture done by every film producer in 
the country who are not part of the MPAA organization.
    Mr. Markey. What I would like to do is just make a request 
from the subcommittee that you do a survey of the companies 
that you represent in terms of their positions on these issues, 
on banning tobacco brand images, on certifying that no one is 
working and receiving payments. And is the NATO representative 
here?
    Mr. Glickman. He is.
    Mr. Markey. Yes. What I would like to do, I know you are 
not testifying here today, but I would like to ask you as well, 
if I can just informally here, if you would give your 
organization's position to the subcommittee on running PSAs 
before any movie that has tobacco in it. It would be very 
helpful for us to understand. That is the National Association 
of Theatre Owners, by the way. That is not the North American 
Treaty Alliance, protecting the world from nuclear threats, 
although many of the movies that they show----
    Mr. Glickman. Mr. Chairman, although sometimes they act 
like it. But John and I are very good friends as well. May I 
just make one point, too, is that in the depiction of smoking 
in movies, and while Mrs. Healton and I may have some 
disagreement about how to measure those things--there is an 
awful lot of negative depiction of smoking in movies. For 
example, the film ``Good Night, Good Luck.'' I have got the 
movie ``Constantine'' where the character played by Keanu 
Reaves just about dies when he lights up a cigarette; in the 
movie ``Stranger than Fiction'' a similar type of situation. So 
we want to point out that qualitatively there are lots of ways 
that movies can be portrayed--smoking can be portrayed in not 
positive ways. And that is our goal is to try to encourage more 
of that as well.
    Mr. Markey. Ms. Healton, would you just like to make a 
brief comment here on what you have heard?
    Ms. Healton. I would just simply say that the research 
suggests very strongly that any form of smoking, unless it is 
entirely unambiguous with regard to health effects, definitely 
has a negative impact. It is not just whether it is a bad guy 
with the cigarette. In fact, bad guy can be even more 
attractive considering the personality profile of kids who 
start smoking at a young age.
    The other point is Legacy Foundation is paying for a very 
substantial proportion of the placement of Truth PSAs in film. 
And, in fact, most States that choose to use their PSA dollars 
or other money to advertise there frequently use our ads, which 
we provide gratis.
    Mr. Markey. I thank you. And the subcommittee is going to 
be paying a lot of attention to this issue over the next 2 
years. And so we will be working with NATO and all of the 
organizations that are represented here today as well.
    Ms. Healton. I am sorry, I did want to add one point. I 
respect the statement made by Mr. Glickman with regard to his 
own companies, but I think it is important for the committee to 
understand that those companies distribute films that are made 
by independent collections of people who put them together. And 
the request for the certification would cover not only the 
companies themselves, but everyone else along the line, whether 
internationally or domestically. And the fact of the matter is 
that there is such pervasive smoking that frankly it is very 
hard to believe there isn't money changing hands. If there 
isn't, it is just totally confusing about how there could be so 
much brand placement occurring and no money changing hands 
anywhere.
    Mr. Glickman. Just I have great respect for Mrs. Healton, 
but a lot of her allegations are not based on facts whatsoever. 
It is hard to believe, she says. The truth of the matter is 
that our companies are committed that there be no product 
placement and stand by that and are committed to try to reduce 
the amount of smoking in movies. And that is why we changed the 
ratings system to allow the new factor to be put in.
    Mr. Markey. And I appreciate that. And, again, it would 
help us if we could have in writing some sense of what 
individual companies are doing as well.
    Mr. Glickman. Sure.
    Mr. Markey. What happens oftentimes is each part of all of 
these industries in the entertainment area have annual awards 
shows and give out awards for all the good things. But who 
claims credit for all the bad things? They don't have that 
awards ceremony. And that is what we are trying to be able to 
get at; have the people who really don't want to testify here. 
Rooting out who they are could help the committee if in writing 
you tell us who wants to, which companies will do it, and which 
will not sign on, because that will help us to focus in on that 
problem.
    Let me turn and recognize the gentleman from Georgia Mr. 
Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    Let us take a family that has two small children, and they 
get their television programming, Mr. McSlarrow, through one of 
your cable providers. Is that cable provider allowed to offer 
that family who might say to them, I don't even want television 
programming coming through my cable system that is rated TV PG 
and below, is that cable operator allowed to offer that family 
such a package? And if not, why not?
    Mr. McSlarrow. If you were restricted to PG and G, I don't 
think you could. And the reason would be that even for those 
cable operators who are offering family tiers, so the cable 
networks that would be part of the family tier would most 
likely be G-rated, maybe some PG, they also by law have to 
offer broadcast stations must carry and retransmission consent 
alike. And while most of those are not going to be MA, 
certainly not before 10 o'clock, there is some point during the 
day that you would have TV14 a lot. So, no, you couldn't.
    Mr. Deal. I mentioned in my opening statement that 
retransmission consent appears to me to be one of the 
impediments in allowing a cable operator to offer more family-
friendly packaging in their cable service area. Is 
retransmission consent an issue, and how does it impact the 
packaging and the bundling that comes with cable presentations?
    Mr. McSlarrow. I think at least in this context the issue, 
I would say, is actually broader than retransmission consent. 
It is the broadcast carriage regime. So it is both must carry 
and retrans. And it really impacts the bundling of packages in 
two ways. Number 1, by law any station that is a must carry 
broadcast station has to be carried on that cable operator's 
system. Don't have a choice about it. And then number two, all 
those stations, the must carry stations and the retransmission 
consent stations, by law must be part of a package offered to a 
cable subscriber. It's called the must buy tier. You have to 
have all the broadcast stations before you can even think about 
adding any of the cable networks.
    So in a sense, with those two rules, you have a forced 
bundle. And I happen to like the bundles. I am not saying it is 
a bad thing, but I am just saying it is not a choice that the 
consumer has.
    Mr. Deal. And that is something that only Congress can 
change since it is legislatively mandated.
    Mr. McSlarrow. Correct.
    Mr. Deal. Mr. Rand, since you are here representing the 
National Association of Broadcasters, we all have heard, and it 
has been alluded to by several here today, about the public's 
opinion through polling about there being too much violence, 
too much profanity, et cetera, on television programming. Would 
you elaborate on what steps that the broadcast industry is 
taking in this regard, and what limitations, if any, are you 
faced with in that area of being able to be more proactive on 
these issues?
    Mr. Rand. Well, along with Mr. McSlarrow's organization, we 
certainly have been very supportive, both on a network level as 
well as local broadcasters, of the measures that are available 
to families to limit different images coming into their homes 
through a v-chip, through identifying by ratings, and also 
through the TV Boss campaign.
    I am often asked if we have the ability to block 
programming that comes from the network, if we choose to look 
at it and say that it is not appropriate for local viewing in 
our estimation. Our stations in Spokane and in Yakima/Tri-
Cities were among the first Fox affiliates last fall to say no 
to the Fox Television Network on the O.J. Simpson special. And 
it ultimately led, through the efforts of that group of people 
who said no to begin with, to them canceling it and canceling 
the book associated with it. So there is that level of control 
and ability to say no.
    Mr. Deal. Could I ask a follow-up on that particular issue? 
That was courageous, in my opinion, on your part to do that. 
But is that the norm in the industry, or is it only those who 
have shown that kind of courage that have been able to deal 
with broadcast networks in that regard? And what, if anything, 
is being done or can be done to give you that autonomy?
    And let me just follow up before you answer my question. As 
a former prosecutor and as one who prosecuted some of the first 
pornography cases in my part of the world, one of the tests 
always was whether or not something had met a community 
standard. It was always one of the elements of determining 
that. I have always viewed, in a rather simplistic fashion, 
that a local cable operator, or in your case a local 
broadcaster, in some form or fashion serves as the determiner 
of a community conscience about some of these issues. I have 
run over my time.
    Mr. Markey. Yes.
    Mr. Deal. I guess I will have to come back later. But I 
thank you both from the cable operator and the broadcaster.
    Mr. Markey. The gentleman is over by a minute, but I ask 
unanimous consent that the witness be allowed to answer the 
question.
    Mr. Deal. Can you respond to that?
    Thank you, Mr. Chairman.
    Mr. Rand. Will you repeat the question?
    Mr. Deal. In simple terms, what degree of autonomy are 
individual broadcast stations being able to have in terms of 
what is coming to them from the big broadcasters?
    Mr. Rand. Well, it is difficult to speak on behalf of the 
whole industry, but in the last couple years, as the profanity 
issue grew to be of more and more interest, you saw a number of 
ABC affiliates choosing to preempt ``Saving Private Ryan'' as 
it was going to run as it was made to begin with. And you saw a 
lot of stations that chose to preempt that program for that 
reason. And the network was faced with putting up with that. So 
there is that ability to do that.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California Mrs. 
Capps.
    Mrs. Capps. Thank you to each of our panelists for your 
presentations. I want to talk about or ask about obesity. Ms. 
Sophos, as you know, the Council of Better Business Bureaus has 
established a voluntary initiative among 11 companies that 
represent two-thirds of food advertising targeted at children. 
These companies have committed that half of their advertising 
will promote healthy lifestyles, a laudable commitment. I am 
pleased that the industry is recognizing this as a problem.
    Here is my question. When advertising is integrated with 
healthy messages, how healthy is the resulting impact on 
children? For example, and this is not a stretch, when an 
advertisement features someone eating french fries and then 
riding a bike, what is the child going to learn from that, and 
how does that really satisfy the healthy lifestyle goal?
    Ms. Sophos. I can't speak to that specific example. We 
haven't looked at----
    Mrs. Capps. Just as an example.
    Ms. Sophos. But I think what the overall purpose of the 
CBBB program is is to take very seriously the requests that 
have been made of the industry by the IOM and by FTC Chairman 
Majoras to shift the mix of products that are advertised to 
children, to shift the balance into healthier products and to 
also communicate healthy lifestyle messages. So I think the 
industry is very keenly focused on both those aspects. And I 
think as the pledges that the companies are making become 
public later this summer, that we will have an ability to 
assess just how much they have been able to sort of meet 
expectations on that point, because I think they are very much 
focused on both aspects of making and marketing better for you 
foods. So I think that we are going to have to try and get a 
sense of what the impact has been overall once the pledges are 
out and once we see them actually play out in the 
advertisements.
    Mrs. Capps. Two other of the panel are eager to respond. 
Dr. Shifrin, and then I will turn to you, Ms. Miller. But I 
wanted to just--the topic is mixed messages. What does this do 
to a young child? This is your area of expertise.
    Dr. Shifrin. When you watch children's commercials, 
children's commercials talk about the fun of the food. You 
rarely see children eating the food on the commercials, if you 
look at children's commercials with a contextual eye. So 
children are enamored because the food is fun. You look at the 
music, you look at the quick cuts.
    So what we would like from the industry, the American 
Academy of Pediatrics would like to use the most bright minds 
in the marketing industry and say, let us create these 
commercials. Let us do focus groups. Let us look at what is 
going to work. Let us not try things and then wait again down 
the road to see that perhaps they are not working.
    So I think it is up to the industry to say if we are 
devoting a huge amount of our budget to this process and 
project, let us do it right. They have the brightest minds in 
the industry. They have changed children's purchasing and 
preferences for years. Let us let them do the work. We will 
work with them.
    Mrs. Capps. That is good. I will give my own 2 cents' 
worth. Ms. Miller, you raised your hand. And being from 
California, I am very familiar and a big fan of the work of 
Children Now and your yearly scorecard on children in 
California. This must be one of the topics you have examined as 
well.
    Ms. Miller. Yes, it is one of the topics. We are examining 
not only media but across other issues, kids' health and 
education. And just a quick note on shifting the balance. What 
public health advocates and children's advocates need to see is 
an actual reduction in junk food advertising to kids. When we 
talk about shifting the mix, it is actually seeing less 
unhealthy food ads. So what we are concerned about with the 
healthy lifestyle messages is the idea of a child riding a 
skateboard in a skateboard park and then eating a bowl of sugar 
cereal to us isn't getting to that issue.
    So what we are really hopeful, and when we see some of 
these pledges, that we actually see reduction in some of these 
unhealthy food ads in terms of trying to shift that mix so it 
is more of an equal playing field for kids in terms of healthy 
versus unhealthy images.
    Mrs. Capps. Ms. Sophos, you are nodding. And here is a 
question for you. Wouldn't industry-funded public service 
announcements separate from your advertisements be more 
effective than integrating healthy messages? Is that something 
the industry might consider bringing to the table at the FCC 
Task Force on Childhood Obesity?
    Ms. Sophos. We believe there is a role for both integrating 
the messages and also for PSAs. Our industry is joined with a 
lot of the media groups and advertising communities supporting 
work that is being done by the Ad Council now. And whether it 
is PSAs or companies using the messages that have been 
developed by the Ad Council and the Department of Health and 
Human Services in communicating through labeling and other 
ways, we do think carrying those messages as part of broader 
social marketing campaigns can be very helpful.
    Mrs. Capps. Thank you all.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the ranking member of the 
subcommittee, Mr. Upton from Michigan.
    Mr. Upton. Well thank you, Mr. Chairman. And I regret that 
I wasn't here for the opening statements. I did read them. But 
I have good news. When Ms. Harman and I walked back into the 
room, in fact, our amendment did pass on the House floor, 
saving the taxpayers millions of dollars in energy costs. So it 
was good news.
    Just a couple things. We are going to have votes on the 
House floor, so I may not use my whole 5 minutes, so I can let 
other Members ask some questions before we adjourn.
    Ms. Sophos, just in follow-up to Mrs. Capps's question, do 
you think that it is wise then, yes or no, for the FCC to move 
forward in terms of their Task Force on Media and Childhood 
Obesity report? Do you think that is a wise thing, or should 
they be waiting until they hear more from you all? It is not 
supposed to be a softball question, but as my former boss I 
have to be careful.
    Ms. Sophos. I understand.
    We have been participating in the Joint Task Force as well, 
along with a number of our member companies. And I think it has 
been a useful dialog that we have had. I think the one thing 
that has been clear throughout this is that everyone in the 
room is very, very interested in making a difference, in trying 
to push the envelope and do something. I think that there are a 
lot of things that the task force can recommend, and I am 
hopeful that we can find some consensus around a lot of things. 
So I think that that process should move forward.
    We have been trying to talk a good deal about the pledge 
program, about the initiative that is under way through the 
CBBB, because we think a lot of the issues that are currently 
being discussed on the task force are actually being 
implemented through that program. And we think that there is a 
nice dovetailing of effort there.
    Mr. Upton. Great. And, Mr. McSlarrow and Mr. Thierer, as I 
have watched my two kids grow up, and now they are both teens, 
and we have cable, as you know, we watch a lot of different 
programming. From when my son used to beat me up, beat me up in 
terms of getting up earlier than I on Saturday mornings to race 
down to turn on the TV, and now it is all I can do with school 
out to get him up before noon now that he is 15, but, as we 
watch and think about how a la carte--we think about so many 
different programs that are truly geared for kids that they 
enjoy and they learn from, Nickelodeon, Discovery Kids, Disney 
Channel is terrific, Planet Earth is a great one, particularly 
when you have HD, can those types of programs, those types of 
channels survive in an a la carte world? What is your thoughts?
    Mr. McSlarrow. Many of them could not.
    Mr. Upton. They never would have started.
    Mr. McSlarrow. In most cases, no. A la carte really has the 
honor of being one of the truly awful policy ideas floating 
around Washington. Every study that has been done on it has 
shown it will be more expensive for consumers, and they will 
have less choice. You just put your finger on an obvious 
downside, which is the very family programming you want will be 
at risk. And then there is another one, which is if you were in 
an a la carte world, and each network had to punch through in 
the marketing haze in order to survive, they are more likely to 
produce edgier content, so you would go exactly the opposite 
direction that people say they want.
    Mr. Upton. Mr. Thierer?
    Mr. Thierer. Yes. I sincerely hope those educational 
enriching options for children don't disappear. And in my book 
on Parental Controls & Online Child Protection, on page 38 I 
list two dozen educational and enriching options for children, 
only two or three of which existed when I was a child. And I 
hope they wouldn't disappear, but I think they probably would 
under a la carte regulation.
    But beyond that, I just want to say that the great things 
about these educational options is not only that they are there 
today, but that they are always there for me, because, through 
either the cable provider in my area or the telco provider, 
Verizon, I can record all of these on the integrated PVRs and 
the boxes in my home, tailor them to when I want my kids to 
watch them. And my two kids, who are under the age of 6, they 
don't see any advertising because either I record certain 
programs that don't have any, like on the Noggin Network, which 
is my personal family favorite, or I actually sit there--and I 
hate to say this with my media friends on the panel--I zap 
through those commercials. And that is the reality. That is 
tailoring, that is empowering parents to provide those sorts of 
choices to their family.
    So I hope these media programs can get funded as I fast-
forward through the ads. That is another problem to discuss, 
but the reality is that is the way we have empowered parents in 
our new media environment.
    Mr. Upton. Dr. Shifrin, last word here with my time.
    Dr. Shifrin. Speaking from a truly pediatric standpoint, it 
is doubtful that any child in America doesn't see advertising. 
When we have parents that say--and I see these parents every 
day--I don't have TV in my house, the children are going 
elsewhere, they are going to malls, they are going to sporting 
arenas. So they are seeing advertising, no question.
    Mr. Upton. I think my time has expired.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California Ms. 
Solis.
    Ms. Solis. Thank you. And I want to thank the witnesses for 
some very courageous statements, I guess, that are being made 
here about what we need to do here for our children to prevent 
further chronic diseases.
    I am concerned about tobacco use, and I want to direct my 
question to Mrs. Healton regarding any movement that you see 
occurring on the rise amongst young teen Latinas, and if there 
is any kind of advertising that is being projected to them to 
somehow attract them or to become smokers, because I have seen 
some evidence that the number has gone up. But maybe you could 
enlighten me a little better.
    Ms. Healton. Essentially in the most recent year for which 
we have data, 12th-grade smoking has continued to decline, and 
both 8th- and 10th-grade smoking has stalled. So that is a bad 
sign. And it is something to be very concerned about, because 
it is the first stall since 1997.
    Really tobacco advertising in general targets every 
possible subgroup imaginable. It may use different 
methodologies depending upon the population prevalence of the 
ethnic group or gender group in the region. But clearly, I will 
take an example, this most recent brand, Camel No. 9, that was 
referred to earlier today, this brand with its menthol teal and 
its shocking pink wrapper, is clearly a brand meant to appeal 
to young teens and meant to draw in new smokers.
    The growth in smoking among Latinos, Latinos have 
relatively lower rates, Latino girls have relatively lower 
rates of smoking. But the picture in South America is 
extraordinary. In Santiago, Chile, for example, over 65 percent 
of girls smoke. So because the rates are low, one way of 
looking at it is they are more aggressively a target of tobacco 
industry marketing, because there is a growth curve there. And 
you could argue there is some theoretical cap above which the 
smoking rate can't go, so the low rate is a marketing 
opportunity.
    Ms. Solis. And for Dr. Shifrin, I wanted to ask you 
quickly, in your research have you taken a look at advertising 
with respect to Spanish-language television and how that 
affects this whole issue of obesity and targeting some 
vulnerable populations?
    Dr. Shifrin. Well, quickly, the American Academy of 
Pediatrics puts out a number of Spanish-language products and 
publications. Certainly Healthy Kids in Espanol is one. We 
don't have any research at this point about that. But it is an 
ongoing area that we are interested in.
    Ms. Solis. Is that something we might want to entertain?
    Dr. Shifrin. Oh, absolutely.
    Ms. Solis. Testing that?
    Dr. Shifrin. Absolutely. Because there is a big difference 
in how it is viewed.
    Ms. Solis. Absolutely.
    Ms. Sophos.
    Ms. Sophos. Yes. I just wanted to add that one of the 
things that GMA has done is to fund a person at the Children's 
Advertising Review Unit specifically to address the Hispanic 
market. Advertising monitoring is something we did on a 
voluntary basis. And also when the USDA came out with its 
newest dietary guidelines, GMA partnered with the Weekly Reader 
to distribute the MyPyramid educational curriculum into the 
schools in both English and Spanish as a way to try and reach 
specific audiences that may be at higher risk.
    Ms. Solis. Good.
    I wanted to just mention to Mr. Thierer that one of the 
issues that we face in the Hispanic community, and sometimes 
just low-income community, is access to the Internet. And so a 
lot of the tools that you talked about, and the vehicles, there 
is no way of people knowing in some sections of my district 
where they just don't have the availability and economically it 
is not feasible. How would you recommend we get the message out 
to those communities and in multicultural communities?
    Mr. Thierer. You look at what some of the industries are 
doing, for example video games, distributing brochures and 
pamphlets and other materials in Spanish, and making sure that 
it is not just on the Internet, but also in stores and 
elsewhere where families might want to take a look at these 
things.
    Clearly more education and awareness efforts are necessary. 
If I could recommend one thing the Government should do more of 
in this area, it would be building awareness about all these 
wonderful tools. When we wanted to build awareness about the 
dangers of forest fires, we had Smokey Bear. When it is 
littering, it is Hoot the Owl. Where is that equivalent effort 
when it comes to building awareness and doing it for many 
different ethnic groups, many different languages and so on? 
That is an important part.
    Ms. Solis. It is amazing Thomas the Train seems to be able 
to captivate all kids from all backgrounds. So I know it can be 
done.
    I am sorry, Ms. Miller, you wanted to comment?
    Ms. Miller. I just wanted to add one of the big concerns we 
have is that many of the tools we are talking about here are 
just out of the economic reach of a lot of families in this 
country, such as, you know, DVRs, for example. And so that is 
why I think it is so important that we give parents accurate 
content-based descriptors so they can make informed choices, 
that there is public education, and the ratings are accurate.
    Ms. Solis. Thank you.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Washington State 
Mr. Inslee.
    Mr. Inslee. Thank you. Obviously something is going on. I 
am told compared to 20 years ago children drink two times more 
soda than milk, and 20 years ago they drank two times more milk 
than soda. Advertising works. Our kids are being deluged by an 
avalanche of corn fructose syrup that is the basis for all of 
these processed foods. And I guess I heard some discussion 
about how to limit the number of messages of these high-
caloric-density, high-corn-fructose foods that that are 
bombarding our kids. And I appreciated Mr. Rand's suggestion to 
have some PSAs like the one he showed us, but these kids are 
seeing 7,600 of these ads a year. And I am just concerned that 
these PSAs are going to be like having an umbrella during the 
London blitz given the number of the ads that these kids are 
being hit with.
    So I guess maybe I can ask Ms. Miller and Ms. Sophos to 
elaborate on what restrictions there may be on these high-
density foods. Now, here is just an idea. Maybe there ought to 
be some limitation per manufacturer of how many high-density-
calorie-per-gram ads you can bombard these kids with, 
particularly for ads that are targeted for the kids under 8. I 
am interested in Ms. Miller's idea that advertising to kids 
under 8 might be an unlawful trade practice in itself, because 
these kids have no rational freedom of thought, if you will. So 
I just wonder if you could each give us maybe, Ms. Miller and 
Ms. Sophos, what could we do to limit the number of these hits 
on these kids for this high-density food?
    Ms. Miller. It is unfair to advertise to kids under the age 
of 8. They have no cognitive ability to discern that someone is 
trying to sell them something. I think what we want to see is a 
shifting the balance to more healthy foods being advertised to 
kids. I would suggest that we start shifting the balance within 
a 2-year time period, a 25 percent reduction in the next year 
of foods that are higher in fats, salts, added sugars, and 
lower in nutrient content, with a goal of at least getting to 
balance in the next 2 years.
    To your point about public service announcements, according 
to the Kaiser study, children ages 2 to 7 see one PSA on 
fitness or nutrition every 2 to 3 days. So there is not an 
equal playing field here. And so I think we just have to start 
really shifting the balance of those unhealthy food ads. And I 
would say we have to get to a level playing field, so when kids 
are actually seeing these ads, they are seeing an equal number, 
at least, of healthy food choices. And as we have seen right 
now, the fact that no fruits and vegetables are being 
advertised is pretty frightening.
    So actually I would say there has to be a point, a 
percentage reduction within a certain time period to say that 
we are actually moving the needle on this issue.
    Mr. Inslee. Ms. Sophos.
    Ms. Sophos. Well, first I want to say that all of our 
members take very seriously their responsibility to advertise 
in a way that is sensitive to children no matter what the age. 
And there is the FTC and CARU also to help make sure this 
advertising is ethical and responsible.
    But to your point about reducing or shifting the balance, I 
think that is exactly the commitment that the companies who 
have been part of the Children's Food and Beverage Initiative 
have made and that their efforts are going to be unfolding over 
the next several weeks and months and years. And I think we 
should take a look. I think through part of that program is an 
element where the CBBB is required to monitor compliance and 
issue a report on impact. So I think we are going to have 
available the data to show what progress we were able to make. 
But I think the goal is, in fact, fairly widely accepted that 
we need to shift the balance.
    Mr. Inslee. Could we get to numerical targets that would be 
legally enforceable? The reason I say this is you represent a 
great industry with great people that care for the kids. No one 
wants to hurt our kids. But cumulatively, the impact of this is 
what we are concerned about. So the question is could we get to 
numerical requirements?
    Ms. Sophos. I think one of the things we have seen is that 
all the experts, IOM and others, say, look, we need to do this 
through a voluntary basis, because, in fact, that is probably 
the quickest way to get there. The commitment and the 
initiative is that a minimum of 50 percent of the ads that are 
directed to children by these companies representing two-thirds 
of all advertising will be for healthier foods and delivering 
healthy messages. So we do have numerical goals in there, and 
my guess is that when the pledges come up, that those goals 
will be exceeded in many cases.
    Mr. Markey. I apologize to you, but there are only 6 
minutes left to vote on the House floor, and in order to give 
Ms. Harman only 4 minutes to ask questions, we have to----
    Ms. Harman. I thank my colleague, and I thank the chairman, 
and I think we have to also walk, so let's do this in two. I am 
late because I had an amendment on the floor with Mr. Upton. 
But I had to show up first to tell our former colleague Mr. 
Glickman how fond we are of him, and how fond we were of Jack 
Valenti, and how important the MPAA remains in this issue of 
trying to figure out what violent content there is in movies 
and what responsible people should do about it.
    Having said that, I just want to make a couple of points. 
First, at least to me, government censorship is a blunt and 
dangerous instrument. I believe that regulating violent content 
on the airwaves is a slippery slope and that censorship has no 
place in a society that values the free exchange of ideas, 
speech, and expression.
    Having said that, I believe in good parenting. Now, how 
many of you are parents? How many in the audience are parents? 
Right. And some of us up here are grandparents. Right. So, I 
think all of you should do a better job than I did as a parent 
in using the tools that are out there wisely to be sure that 
your kids don't eat the wrong stuff and don't watch the wrong 
stuff. And I think that parents who take that responsibility 
must take that responsibility and can do it well.
    And finally, on this issue of an a la carte option, I did 
want to weigh in here, it may be an easy tool for techno-lazy 
parents like I was, but the problem with it is that it also may 
take away the diversity in programming that people like me, and 
I think most people, have come to value.
    So let us pick the right tools. Let us exercise our 
responsibilities as parents. And again, my apologies for 
missing what I am sure was excellent testimony.
    I thank the chairman for yielding. Two minutes and two 
seconds to go make it.
    Mr. Markey. I thank the gentlelady.
    Mr. Glickman, you had a few words you wanted to add. I saw 
your hand was up.
    Mr. Glickman. I was going to say to Mr. Inslee, under the 
Clinton administration and it has been continued under the Bush 
administration, there has been some funding to try to increase 
the quality of food in the National School Lunch Program, 
School Breakfast Program. Those programs need significant 
additional funds, particularly fresh fruits and vegetables. It 
would really train kids. And you know, it is an area we haven't 
discussed today, but it is part of this mix.
    Mr. Markey. I thank the gentleman. Look, here is the bottom 
line: the first amendment is precious, but the children of our 
country are just as precious. And we need a healthier balance 
in our country. We have to make sure that these children are 
not bombarded with messages from commercial America that is, in 
fact, to the detriment of the children of our country. And most 
of these parents aren't in a position--they are both working; 
they are out of the house; they need help. Parents are heroes, 
but they need the help that makes it possible for them to 
protect their children. And so, again, I just want to make 
clear that while these kids have all of these unhealthy choices 
that are being presented to them in the media on an ongoing 
basis, that if there is not a proper response from industry, 
that I am prepared to press the Federal Communications 
Commission to put on the books the rules that will protect the 
children of our country from these unhealthy messages. The FCC 
has the authority under the Children's Television Act to do 
that, and I just hope that the industry responds, that they do, 
in fact, protect the children of our country. We have to put 
the tools in the hands of the parents to be able to do it. But 
that also includes the work of the Federal Communications 
Commission to fulfill the mandate of the law, that the 
children's programming of our country is nutritious for 
children, both intellectually but also their diet as well.
    I can't thank the panel enough. This was a great, great day 
for us. And I apologize to you for the chaos that is going on 
out on the House floor, drawing away the Members. But with 
that, this hearing is adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
